APPENDIX

1a
APPENDIX A
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
_______
GEORGE K. YOUNG, JR.,
Pro Se Plaintiff,
v.
STATE OF HAWAII and NEIL ABERCROMBIE in his
capacity as Governor of the State of Hawaii; DAVID
M. LOUIE in his capacity as State Attorney General;
COUNTY OF HAWAII, as a sub-agency of the State of
Hawaii and WILLIAM P. KENOI in his capacity as
Mayor of the County of Hawaii; and the Hilo County
Police Department, as a sub-agency of the County of
Hawaii and HARRY S. KUBOJIRI in his capacity as
Chief of Police; JOHN DOES 1-25; JANE DOES 1-25;
CORPORATIONS 1-5, and DOE ENTITIES 1-5,
Defendants.
_______
Case No. 1:12-cv-00336-HG-BMK
_______
Filed 06/12/12
_______
COMPLAINT FOR DEPRIVATION OF CIVIL
RIGHTS

2a
42 U.S.C. 1983
42 U.S.C. 1985
42 U.S.C. 1986
No trial date set
_______
COMPLAINT
This is an action pursuant to:
(a)

Title 42 U.S.C. 1983, Civil action for Rights.

(b) Title 42 U.S.C. 1985, Conspiracy to interfere
with civil rights.
(c) Title 42 U.S.C. 1986, Action for neglect to
prevent.
PARTIES
1) Plaintiff — Pro Se: George K. Young, Jr., a
citizen of the United States of America and a citizen
and legal resident of the State of Hawaii, who
presently resides at 1083 Apono Place, Hilo, Hawaii
96720, Telephone: (808) 959-5488; Cellular: (808)
895-1735. Pro se Plaintiff has no other civil or
criminal actions pending in courts, nor is said
Plaintiff a party to any legal or pending legal court
action.
2) Defendant: State of Hawaii and NEIL
ABERCROMBIE, who is employed as the Governor
of the State of Hawaii and is the present Governor of
the State of Hawaii. Defendant’s present address of
employment is: Executive Chambers, State Capitol,
Honolulu, Hawaii 96813, telephone: (808) 586-0034.
Defendant is responsible for the oversight of all
laws passed in the State of Hawaii, and to insure
that the laws are in compliance with and not

3a
contrary with the Constitution of the United States
of America.
3) Defendant: Office of the State Attorney
General and DAVID M. LOUIE, who is employed as
the State Attorney General and is the present State
Attorney General, who business address is: 425
Queen Street, Honolulu, Hawaii 96813, Telephone:
(808) 586-1239, and who is responsible for advising
the legislative branches of government, that the
Hawaii State laws, as ratified, as within
constitutional conformance with and are not in
contravention of the Constitution. The State
Attorney General, being the top law enforcement
officer within the State of Hawaii is obligated to
provide legal guidance for the enforcement of state
law to the various counties.
4) Defendant: County of Hawaii, which is a
political subdivision of the Hawaii State Government
and WILLIAM P. KENOI, who is employed as the
Mayor of the City of Hilo and County of Hawaii, and
is directly responsible for the actions and behavior of
the Hawaii County Police Department and the Chief
of Police. Mr. KENOI’s present place of business is
25 Aupuni Street, Hilo, Hawaii 96720, Tel: (808) 9612349.
5) Defendant:
Hawaii
County
Police
Department, which is a sub-agency of the City of
Hilo and County of Hawaii, and Harry S. Kubojiri
who is employed by the County of Hawaii as Chief of
Police, and is responsible for the enforcement of
county ordinances and state statutory laws.
Defendant Kubojiri’s place of employment is located
at 349 Kapiolani Street, Hilo, Hawaii 96720, Tel
(808) 935-2244.

4a
6) DEFENDANTS: John Does 1-25, Jane Does
1-25, Doe Business Entities 1-5, and Doe Non-Profit
Entities 1-5 (hereinafter “Doe Defendants”) are sued
herein under fictitious names for the reason that
their true names and capacities presently are
unknown to Plaintiff except that they are connected
in some manner with the named Defendants as
agents,
servants,
employees,
representatives,
assignors, assignees, licensees, contractors, and subcontractors and/or in some manner presently
unknown to Plaintiff were engaged in the activities
alleged herein. Plaintiff will amend his complaint or
identify the Doe Defendants at such time as their
true names and capacities become known. The Doe
Defendants are sued herein in their official
capacities.
JURISDICTION
1) This court has jurisdiction pursuant to U.S.
Constitution, Article III, Section 2.
2) This court has jurisdiction pursuant to 42
U.S.C. 1983, 1985 and 1986.
3) This court has jurisdiction pursuant to 28
U.S.C. 1331, Federal Question: “The district
courts shall have original jurisdiction of all
civil actions arising under the Constitution,
laws, or treaties of the United States”
4) This court has jurisdiction pursuant to 28
U.S.C. 1343, Civil rights and elective franchise:
“The district courts shall have original
jurisdiction of any civil action authorized by
law to be commenced by any person: (1), (2),
(3), (4).”

5a
VENUE
Venue is proper in this court for the District of
Hawaii under 28 U.S.C. 1391: Venue generally. All
of the events and/or omissions described herein
occurred in the State of Hawaii.
STANDING
Plaintiff has standing as a citizen of the United
States of America, with legal citizenship and
residency within the State of Hawaii and is seeking
refuge and relief within the Constitution of the
United States. Combined, the State of Hawaii,
County of Hawaii and the Hawaii County Police
Department and its Chief of Police are in violations
of the following United States Constitutional law:
a) Quoted in part... U.S. Constitution, Article
I, Section 10: “No state shall ...pass any ...law
impairing the Obligation of Contracts...”. As in
this instance, the burden of proof is on the State to
demonstrate through documentary, historical,
legislative facts that the United States Constitution
is, in fact, a product of the combined state legislative
acts, and not a product of the people themselves.
b) U.S. Constitution, Amendment II: “A wellregulated militia being necessary to the security of a
free State, the right of the people to keep and
bear arms shall not be infringed.” “c. Meaning
of the Operative Clause. Putting all of these
textual elements together, we find that they
guarantee the individual right to possess and
carry weapons in case of confrontation.”
(Washington, D.C. v. Heller, 554 U.S. 570 (2008).
c) U.S. Constitution, Amendment IX: The
enumeration in the Constitution, of certain rights,

6a
shall not be construed to deny or disparage
others retained by the people.
d) Quoted in part... U.S. Constitution,
Amendment XIV, Section I: “...No state shall
make or enforce any law which shall abridge the
privileges or immunities of citizens of the
United States;...”
e) Quoted in part... U.S. Constitution,
Amendment XIV, Section I: “...nor shall any state
deprive any person of life, liberty, or property,
without due process of law...”.
“The Court also held that Bill of Rights protections
must “all ...be enforced against the States under the
fourteenth Amendment according to the same
standards that protect those personal rights against
federal encroachment.” (Malloy v. Hogan, 378 U.S.
1, 10). “Under this approach, the Court overruled
earlier decisions holding that particular Bill of
Rights guarantees or remedies did not apply to the
States.” (Gideon, supra, which overruled Betts v.
Brady, 316 U.S. 455). “The Fourteenth Amendment
makes the Second Amendment right to keep and
bear arms fully applicable to the States.(McDonald
, et al v. City of Chicago, Illinois, et al (June
2010)).
“The Constitution is a written instrument. As such,
its meaning does not alter. That which it meant
when it was adopted, it means now. (South
Carolina v. United States, 199 U.S. 437, 4488
(1905).
“To disregard such deliberate choice of words and
their natural meaning, would be a departure from
the first principle of constitutional interpretation. “In

7a
expounding the Constitution of the United States,”
said Chief Justice Taney in Holmes v. Jennison, 14
U.S. 540, 570-1, “every word must have its due force
and appropriate meaning; for it is evident from the
whole instrument, that no word was unnecessarily
used, or needlessly added. The many discussions
which have taken place upon the construction of the
Constitution have proved the correctness of this
proposition; and shown the high talent, the caution
and the foresight of the illustrious men who framed
it. Every word appears to have been weighed with
the utmost deliberation and its force and effect to
have been fully understood.” (Wright v. United
States, 302 U.S. 583 (1938).
“The Constitution was written to be understood by
the voters; its words and phrases were used in their
normal and ordinary (meaning), as distinguished
from technical meaning; where the intention is clear,
there is no room for construction, and no excuse for
interpolation or addition. (Martin v. Hunter’s
Lessee, 1 Wheat. 304; Gibbons v. Ogden, 9
Wheat. 419; Brown v. Maryland, 12 Wheat. 419;
Craig v. Missouri, 4 Pet. 10; Tennessee v.
Whitworth, 117 U.S.
139; Lake County v.
Rollins, 130 U.S. 662; Hodges v. United States,
203 U.S. 1; Edwards v. Cuba R. Co., 268 U.S. 628;
The Pocket Veto Case, 279 U.S. 655; (Justice)
Story on the Constitution, 5th Ed., Sec 451;
Cooley’s Constitutional Limitations, 2” Ed., pg.
61, 70).
“The words “people of the United States” and
“citizens” are synonymous terms, and mean the
same thing. They both describe the political body
who, according to our republican institutions, form

8a
the sovereignty, and who hold the power and conduct
the Government through their representatives. They
are what we familiarly call the “sovereign people”,
and every citizen is one of this people, and a
constituent member of this sovereignty.” (Dred
Scott v. Sanford, 60 U.S. 393 (1856).
“Congress finds the following:
(1) The Second Amendment to the United
States Constitution provides that the right of
the people to keep and bear arms shall not be
infringed.
(2) The Second Amendment to the United
States Constitution protects the rights of
individuals, including those who are not
members of a militia or engaged in military
service or training, to keep and bear arms.
PURPOSE:
(3) To
guarantee
a
citizen’s
rights,
privileges, and immunities, as applied to the
States, under the Fourteenth Amendment to
the United States Constitution, pursuant to
section 5 of that Amendment.”
(Protection of Lawful Commerce in Arms Act,
S.397, October 2005)
Hence forth, in pursuance of United States
Constitution,
Article
VI,
Clause
2:
“This
Constitution, and the Laws of the United States,
which shall be made in Pursuance thereof; and all
Treaties made, or which shall be made, under the
Authority of the United States, shall be the
Supreme Law of the Land; and the Judges in
every State shall be bound thereby, any Thing

9a
in the Constitution or Laws of any State to the
Contrary notwithstanding.”
United
States
Constitution
Article
III
jurisdiction exists and therefore, “legal standing”
exists.
Cases on Point (Precedence on Standing):
1) “Our analysis must begin with the recognition
that where threatened action by government is
concerned, we do not require Plaintiff to expose
himself to liability before bringing suit to
challenge the basis for the threat — for example,
the constitutionality of a law threatened to be
enforced. The Plaintiff’s own action (or inaction) in
failing to violate the law eliminates the imminent
threat of prosecution, but nonetheless does not
eliminate Article III jurisdiction.”
(Medimmune, Inc. v. Genentech, Inc., 549 U.S.
(2007), Decided 9 January 2007)
2) “...the declaratory judgment procedure is an
alternative to pursuit of the arguably illegal
activity,” I.D., at 480. In each of these cases, the
Plaintiff had eliminated threat of harm by simply
not doing what he claimed the right to do. That did
not
preclude
subject-matter
jurisdiction
because the threat-eliminating behavior was
effectively coerced.” (Terrance v. Thompson,
263 U.S. 197 (1923) supra, at 215-216; Steffel v.
Thompson, 415 U.S. 452 (1974), supra, at 459)
3) “The dilemma posed by that coercion-putting
the challenger to the choice between abandoning his
Rights or risking prosecution is “a dilemma that it
was the very purpose of the Declaratory Judgment

10a
Act to ameliorate.” (Abbott Laboratories
Gardner, 387 U.S. 136, 152 (1967)

v.

Plaintiff, is an honest, law abiding, tax paying
citizen of the United States and, an individual
sovereign without a criminal record or any pending
legal action either civil or criminal, is being
wrongfully coerced into being denied the “free
exercise of conscious choice” and liberty to
decide
whether
or
not
to
exercise
his
constitutionally protected individual right, to “...
bear arms...” for personal self-defense, that is, in
the present instance, a hand held firearm in useable
condition, loaded with live ammunition, and carried
on oneself, either concealed or unconcealed, via the
U.S. Constitution, Amendment II, through the
unconstitutional and unlawful enforcement of H.R.S.
134, which is a disguised in the form of a legislative
regulatory scheme “under color of law”.
SUBSTANCE OF ACTION
“The propriety of state law to authorize
constitutional invasion by a state sub-agency
(County of Hawaii) and by a county employee,
who is not a member of the State executive
branch, legislative body or judicial branch of
government. Nor is said individual a
recognized “constitutional” official, with
judicial adjudicative authority to initiate
“...due
process”
via
the
Fourteenth
Amendment.
H.R.S. 134: FIREARMS, AMMUNITION AND
DANGEROUS WEAPONS
1. Hawaii Revised Statute 134-9. Licenses to
Carry:

11a
In part: (a) In an exceptional case, when an
applicant shows reason to fear injury to the
applicant’s self or property, the chief of police of the
appropriate county may grant a license to an
applicant... to carry a pistol or revolver and
ammunition therefore concealed on the person
within the county where the license is granted.
...Where the urgency or the need has been
sufficiently indicated, the respective chief of police
may grant to an applicant of good moral character
who is a citizen of the United States of the age of
twenty-one years or more, is engaged in the
protection of life and property ...a license to
carry a pistol or revolver and ammunition therefore
unconcealed on the person within the county
where the license is granted.
In part: (b)(1): Be qualified to use the firearm in a
safe manner;...
In part (c): No person shall carry concealed or
unconcealed on the person a pistol or revolver
without being licensed to do so under this section or
in compliance with Hawaii Revised Statute 134-6.
Carrying ...place to keep firearms; loaded
firearms; penalty.
2. Hawaii Revised Statute 134-6. Carrying or
use of firearm in the commission of a separate
felony; place to keep firearms; loaded firearms;
penalty.
In part: (a): It shall be unlawful for a person to
knowingly carry on the person or have within
the person’s immediate control...
In part: (c): ...provided that it shall be lawful to
carry unloaded firearms or ammunition or both in an

12a
enclosed container from the place of purchase to
the purchaser’s place of business, residence, or
sojourn, or between these places and the following: a
place of repair; a target range; a licensed dealer’s
place of business; an organized, scheduled firearms
show or exhibit; a place of formal hunter or firearms
use training or instruction; or police station.
“Enclosed container” means a rigidly constructed
receptacle, or a commercially manufactured gun
case, or the equivalent thereof that completely
encloses the firearm.
In part: (e): Any person violating subsection (a) or
(b) shall be guilty of a class A felony. Any person
violating this section by carrying or possessing a
loaded firearm or by carrying or possessing a loaded
or unloaded pistol or revolver without a license
issued as provided in section 134-9 shall be
guilty of a class B felony. Any person violating
this section by carrying or possessing an unloaded
firearm other than a pistol or revolver, shall be
guilty of a class C felony.
Hawaii Revised Statutes 134-6 (in part) and
134-9 (in part) offends Plaintiff’s constitutional
sensibilities and openly denies Plaintiff’s free
exercise to carry a firearm for the lawful purpose of
personal self-defense and such impediments are
found to be repugnant and offensive to the United
States Constitution, contrary to the legislative intent
of the national congress (December 15, 1791) and
denies the rightful will of the individual
Sovereign. In District of Columbia v. Heller, 554
U.S. 570 (2008) the majority (Justices) reaffirmed
and agreed to the correct reading of Nunn v. State,
1 Ga (1 Kel.) 243 (1846):

13a
“A law which merely inhibits the wearing of
certain weapons in a concealed manner is
valid. But so far as it cuts off the exercise of the
right of the citizen altogether to bear arms, or,
under the color of prescribing the mode,
renders the right itself useless — it is in
conflict with the Constitution and void.”
“...But to be in conflict with the Constitution,
it is not essential that the act should contain a
prohibition against bearing arms, in every
possible form. It is the right to bear arms, that
is secured by the Constitution, and what ever
restrains the full and complete exercise of that
right, though not an entire destruction of it, is
forbidden by the explicit language of the
Constitution.”
Prior to this instance of legal action PLAINTIFF
had previously filed two actions with this Court.
First Action: CV-07-00450 HG KSC (24 Aug
2007), Plaintiff claiming the 2d Amendment as an
individual,
fundamental
and
constitutionally
protected right. Case was dismissed by Judge Helen
Gillmor,(former) Chief Judge of this court, for lack of
standing as the 2d Amendment was a state
“collective right” and not an individual right. This
action was prior to the District of Columbia v.
Heller (2008) case. Consequently all other claims
were dismissed.
Judge Gillmor’s judgment erroneously relied upon
United States v. Cruikshank, 92 U.S. 542, 553
(1876), and Presser v. Illinois, 116 U.S. 252, 26465 (1886), which both held that the Second
Amendment limits only Congressional action.

14a
Judge Gillmor also noted that the Ninth Circuit
followed, erroneously, United States v. Miller, 307
U.S. 174 (1939), in Hickman v. Block, 81 F.3d 98,
101-02 (9th Cir. 1996), which rejected the argument
that the Second Amendment establishes an
individual right.
Supreme Court Washington, D.C. v. Heller
Footnote #24: “As for the “hundreds of Judges”
...who have relied on the view of the Second
Amendment JUSTICE STEVENS claims we
endorsed in Miller. If so, they over read Miller. And
their erroneous reliance upon an uncontested and
virtually unreasoned case cannot nullify the reliance
of millions of Americans (as our historical analysis
has shown) upon the true meaning of the right to
keep and bear arms.”
Second Action: Plaintiff resubmitted his claim of
Second Amendment violation based upon the Heller
decision and CV-08-00540 DAE-KSC was decided by
Judge David Ezra. Once again, this court made an
erroneous judicial ruling based upon what was, once
again, not said and what was not written.
“This Court distinguished Heller on the
grounds that it involved a federal law applying only
to the District of Columbia, a federal enclave, and
not to the states. This Court held that Heller did
not over rule the longstanding precedent relied on in
the Previous Action that states are not bound by the
Second Amendment.
Although Heller may have conferred standing to
Plaintiff, it did so only for claims against the federal
government, not a state or local government. (CV-0800540 DAE-KSC (2 Dec 2008).

15a
Judge Ezra’s fault can be found in the facts (a) the
Washington, D.C. council passes ordinances which
take on the character and weight of “statute law”,
the U.S. Congress did not pass the law in question,
therefore it was not “federal law”. And (b) a federal
enclave often refers to a military post, fort, port
facilities where due to the “voluntary servitude”
environment, the Uniform Code of Military Justice
(UCMJ) prevails, though still subordinate to the U.S.
Constitution. The UCMJ has weight and merit in
reference to federal law. Much as Maritime Law does
on the sea.
Plaintiff, recently, on two occasions, 29 August
2011 and 16 September 2011, applied for a personal
permit, in accordance with Hawaii Revised Statute
(H.R.S.) 134-9(a)(c), to be authorized to carry a
firearm, outside the home, either concealed or
unconcealed, stating the purpose being for personal
security, self-preservation and defense, and
protection of personal family members and property.
On both occasions, Plaintiff was denied a permit,
by the Defendant Kubojiri, pursuant to H.R.S.
134-9, citing that “...only in exceptional cases or
a demonstrated urgency...”, which is yet to be
defined, the Chief of Police “...may grant...” a
permit, subject to his personal opinion. It is yet to
be defined as to why the Right to personal selfpreservation, self-defense including the bearing of
arms and all actions, within reason, taken in the
preservation of that Right must qualify to be an
exceptional case or demonstrated urgency.
H.R.S. 134-9 is a vexatious and invidious law that is
overly broad and lacks definition and specificity.
H.R.S. 134-9 provides wrongful legislative delegation

16a
of the unconstitutional, unlawful, uncontrolled and
unlimited discretionary authority over an
individual,
fundamental
and
federally
protected constitutional Right, to which the
Hawaii state legislature, itself, has no authority to
demean, take away from, denigrate, render
meaningless, or impotent, ...to the local Chief of
Police. Constitutionally, what a state cannot do
directly, it is forbidden to do indirectly.
“If a State has no such power of prohibition, she
cannot empower her officers or agents to do what she
cannot do herself, viz., prohibit internal commerce in
foreign merchandise. Suppose the legislature of
Massachusetts, instead of conferring this power of
prohibition upon county commissioners, to be
exercised in their uncontrolled discretion, should
retain it, to be exercised by herself; it would be
unlawful legislation, and in collision of a State
law with a law of the United States.” “...a law of
prohibition, because they assume to provide for
licenses to persons to sell, and then empower the
agents they create to refuse all such licenses
without cause... ...and in fact, no such license
can be obtained. BOTH THE INTENT AND THE
OPERATION
OF
THESE
LAWS
ARE,
THEREFORE, PROHIBITORY.” “The point
where regulation ceases and prohibition
begins is the point of collision, and of
UNCONSTITUTIONAL OPERATION, of a State
law.... “In this respect a State law becomes a
law of prohibition when it punishes all who sell
without a license (or carry arms without a license)
and confers the whole power of licensing on

17a
agents, with express authority to withhold all
licenses.”
“The natural import of the words is to be adopted;
and if technical words are used, they are in general
to have assigned to them their technical sense. (Ex
Parte Hall, 1 Pick. 261; The State vs. Smith, 5
Humph. 392; Bank vs. Cook, 4 Pick. 405). Where
a word has a clear and settled meaning at common
law, it ought to have the same meaning in construing
a statute in which it is used. (Adams vs.
Terrentine, 8 Iredell 147). Where a law is plain
and unambiguous, whether expressed in general or
limited terms, there is no room left for construction,
and a resort to extrinsic facts is not permitted to
ascertain its meaning. (Bartlett vs. Morris, 9
Porter 266).” The word “may” is always held to
mean “must” or “shall” in cases where the public
interest and rights are concerned, and where the
public or third persons have a claim de jure that the
power delegated should be exercised. (Ex Parte
Simonton, 9 Porter 390; Minor v. Bank, 1
Peters 64; Shuyler Co. v. Mercer Co., 4 Gilman
20; Turnpike v. Miller, 5 Johns. Ch. Rep. 101)
“The words “may grant” were legally construed
“must or shall grant,” according to the well-known
general rule of so construing the word “may”, when
used in a public act or municipal charter to impart
an authority to public officers, in the exercise of
which the public interest or PRIVATE RIGHTS
were concerned; and that the practice of the
authorities of the towns ...had always concurred with
this well-known rule of construction. (“The
License Cases”, Thurlow v. Commonwealth of

18a
Massachusetts, 46 U.S. 504 (48 How. 504);
January Term 1847.
The state of Hawaii, in construing the language of
H.R.S.
134-9
“...may
grant...”
to
imply
discretionary authority, is in direct conflict and
contradiction with their own statutory law of H.R.S.
480-3 Interpretation:
“This chapter shall be construed in accordance with
judicial interpretations of similar federal antitrust
statutes, except that lawsuits by indirect purchasers
may be brought as provided in this chapter.
...Federal statutes and decisions are to be used as
guides. (63 H. 289, 627 P.2d. 260); cited: 332 F.3d.
600; 168 F. Supp. 2d 1180)
“All political power of this State is inherent in the
people and the responsibility for the exercise thereof
rests with the people. All government is founded on
this authority.” (Constitution of the State of
Hawaii, Article I, Section 1)
“The legislative power of the State shall be vested
in a legislature, which shall consist of two houses,
a senate and a house of representatives. Such
power shall extend to all rightful subjects of
legislation not inconsistent with this constitution or
the
Constitution
of
the
United
States.”
(Constitution of the State of Hawaii, Article III,
Section 1)
The legislative power does not extend to the local
county sub-agencies and their political appointees,
who are further authorized to operate unilaterally.
“Delegated powers cannot be subdelegated. The
U.S. constitution vests all legislative powers in
Congress, and all judicial powers in the Supreme

19a
Court and inferior courts, except as specifically
expressed. Executive branch officials may sub
delegate but must remain responsible for the actions
of their subordinates. There can be no authority
exercised that is not accountable through
constitutional officials. Delegata potestas non
potest delegari. A delegated power cannot be
delegated. 9 Inst. 597.”
Rights may not be disabled or unduly burdened by
legislative or executive process. “Due process” is
judicial only, involving the granting of a petition,
upon presentation of probable cause, to disable a
constitutional right of a defendant, with the
burden of proof on the plaintiff or prosecutor, and
with the defendant having at least those minimum
protections that prevailed during the Founding, with
similar disablements having similar standards of
proof and protection.
Within the jurisdiction of Hilo County and
according to its police administrator, it is a matter of
routine procedure that a Concealed Carry Weapons
(CCW) permit is not to be issued, but only upon
demonstration of an actual menace and subjected to
the discretion of the local county Chief of Police. The
Chief of Police is unconstitutionally delegated
authority to refuse to grant the permit if he does not
approve of the applicant based upon what may or
may not happen in a future instance. Or, require as a
prerequisite, “...is engaged in the protection of
life and property...”, through implication, since the
word “engaged”, in past tense, as used, implies that
a person must currently be a member of a law
enforcement agency or employed by a licensed
private security company, licensed to do business in

20a
the State of Hawaii and, engaged in the employment
of protecting a paying third party’s life and
property, and that personal action of preparing for
individual, personal self-preservation and selfdefense is prohibited and denied. This contention is
unconstitutional and offensive. These criteria are
without semblance of U.S. constitutional approval
and legally recognized definitive standards or
other controlling guidelines governing the action
of the Chief of Police, Defendant Kubojiri, in
granting or withholding a permit. It is thus plain
that he acts, in this respect, by authority of the
state, in his personal and uncontrolled
discretion by means of unconstitutional
delegation of authority by the Hawaii State
legislature.
“A law which merely inhibits the wearing of
certain weapons in a concealed manner is
valid. But so far as it cuts off the exercise of the
right of the citizen altogether to bear arms, or,
under the color of prescribing the mode,
renders the right itself useless—it is in conflict
with the Constitution, and void.” (Nunn v.
State, 1 GA (1 Kel.) 243 (1846)
“In Nunn v. State, 1 GA. 243, 251 (1846), the
Georgia Supreme Court construed the Second
Amendment as protecting the “natural right to
self-defense” and therefore struck down a ban
on carrying pistols openly. Its opinion perfectly
captured the way in which the operative clause
of the Second Amendment furthers the purpose
announced in the prefatory clause, in

21a
continuity
with
the
English
right....”
(Washington, D.C. v. Heller, 554 U.S.570 (2008).
“It is settled by a long line of recent decisions of the
United States Supreme Court that a statute which,
like this one, makes the peaceful enjoyment of
freedoms which the U.S. Constitution guarantees
contingent upon the uncontrolled will of an
official — as by requiring a permit or license which
may be granted or withheld in the discretion of such
official — is an unconstitutional censorship or
prior restraint upon the enjoyment of those
freedoms.” (Staub v. City of Baxley, 355 U.S. 313
(1958)).
“It thus becomes apparent that the lack of
standards in the license-issuing “practice” renders
that “practice” a prior restraint in contravention
of the Fourteenth Amendment, and the
completely arbitrary and discriminatory
refusal to grant the permits was a denial of
equal protection. P. 273 (Niemotko v.
Maryland, 340 U.S. 268 (1951).
“The most familiar of the substantive liberties
protected by the Fourteenth Amendment are those
recognized by the Bill of Rights. We have held that
the Due Process Clause of the Fourteenth
Amendment incorporates most of the Bill of
Rights against the States. See e.g. Duncan v.
Louisiana, 391 U.S. 145, 147, 148 (1968). It is
tempting, as a means of curbing the discretion of
federal judges, to suppose that liberty encompasses
no more than those rights already guaranteed to the
individual against federal interference by the
express
provisions
of
the
first
eight

22a
amendments to the Constitution. But of course
this Court has never accepted that view. “...The
full scope of the liberty guaranteed by the Due
process Clause cannot be found in or limited by the
precise terms of the specific guarantees elsewhere
provided in the Constitution. This “liberty” is not a
series of isolated points pricked out in terms of the
taking of property; the freedom of speech, press, and
religion; the right to keep and bear arms; the
freedom from unreasonable searches and seizures;
and so on. It is a rational continuum which, broadly
speaking, includes a freedom from all
substantial
arbitrary
impositions
and
purposeless
restraints, ...and which also
recognizes, what a reasonable and sensitive
judgment must, that certain interests require
particularly CAREFUL SCRUITINY of the state
needs asserted to justify their abridgement.”
(Planned Parenthood of Southeastern PA. v.
Casey, 505 U.S. 833 (1992).
“...We have held that a liberty under the Due
Process Clause of the Fourteenth Amendment
will be deemed fundamental if it is “implicit in the
concept of ordered liberty. (Palko v.
Connecticut, 302 U.S. 319, 325 (1937)
It is undeniable that the statute is an unlawful
delegation of “judicial” authority for Defendant
Kubojiri, to refuse to grant the required permit or
license to qualified applicants, who do not fall within
the parameter of “prohibited persons” listed in
H.R.S. 134-7, at his uncontrolled discretion. It
thus makes enjoyment of the benefit of “...bearing
arms...” contingent upon the will and “parental”
consent of a county employee. The Second

23a
Amendment is a fundamental individual right that
is unrestrained, within reason, from federal
congressional abridgment and is further protected by
the Fourteenth Amendment’s “privileges and
immunities” clause and enforced through its
Liberty clause by way of its “due process” against
invasion by state action.
“Where a constitutional provision is complete in
itself it needs no further legislation to put it in force.
When it lays down certain general principles as to
enact laws upon a certain subject, or for the
incorporation of cities of certain population, or for
uniform laws upon the subject of taxation, it may
need more specific legislation to make it operative. In
other words, it is self-executing only so far as it is
susceptible of execution. But where a constitution
asserts a certain right, or lays down a certain
principle of law or procedure, it speaks for the
entire people as their supreme law, and is full
authority for all that is done in pursuance of its
provision. In short, it executes itself.” (Davis v.
Burke, 179 U.S. 399, 403 (1900)).
The Second Amendment is also protected
through the Ninth Amendment, as one of the
existing peripheral rights, the right of free
conscious thought and the right to decide,
associated with life and liberty, to which it is
promised and guaranteed by the U.S. Constitution
itself. For these reasons, H.R.S. 134-9, on its face,
imposes an unconstitutional prior restraint
upon the enjoyment of Second Amendment
freedoms and lays “a forbidden burden upon
the exercise of liberty protected by the
Constitution.”

24a
It is a demonstrable fact, of the reduction,
denigration, rendering meaningless, and impotent,
the second amendment “...the right of the
people to keep and bear arms shall not be
infringed.”, has been the result through the
implementation and abuse of a licensing and/or
permit scheme, to convert a constitutional right
into a local administrative privilege. The Right
in question is not a privilege nor benefit
bestowed by the State nor is it a privilege or
benefit subjected to the will of the majority of
the body of citizens residing within a state. The
Right in question exists apart from state
authority. It is guaranteed the people by the
federal constitution. Such a contradictory exercise
of political power is totalitarian in nature and is in
complete disregard and contrary to the purpose and
nature of the Fourteenth Amendment (Ratified
28 July 1868), for which its specific purpose was to
deny state and local counties “arbitrary and
capricious” discretionary authority over the
first eight amendments. The ratifying legislative
language of the 39th national congress demands and
mandates the prohibition of invasion by the states
legislative bodies. Such field of discretion must be
defined by the legislature. The legislature must set
bounds to the field, and must formulate the
standards which shall govern the exercise of
discretion within the field. It is well-established
principle of administrative law that to prevent an
unlawful delegation of power, it is incumbent upon
the legislative authority to set forth standards to
indicate to the agency the limits of its power. The
Constitution of a State and the orderly processes of

25a
representative government require that the
legislature should make such important decisions
itself. Otherwise there is no method by which the
Plaintiff can locate responsibility for such
fundamental determinations of public policy. The
legislature cannot secure relief from its duties and
responsibilities by a general delegation of legislative
power
to
someone
else.
“Arbitrary
and
capricious” discretionary authority in the hands
of state and local legislative bodies and to subagencies was a doctrine advocated by the states of
the South and brought about the Civil War, to which
those particular defeated states were not allowed
back into the Union until they accepted and
recognized the Fourteenth Amendment. Total and
complete, undisciplined, uncontrolled, indefinitive
discretionary authority has been unconstitutionally
delegated through a state legislative act, to be
administered by a non-elected, non-constitutional,
non-judicial person, who accepts no duty in the
affirmative, or any responsibility or liability for
injuries or death or the continued care and support
for the survivors under Plaintiff’s responsibility,
should Plaintiff become an incapacitated victim;
and upon close observation, it is realized that,
fundamentally, Defendant Kubojiri is nothing
more than a mere political appointee and an
employee of the county, hired as an administrator of
law enforcement. The free pass of “no legal
constitutional obligation” by public servants and
local law enforcement is settled law and further
decreed by the United States Supreme Court and
other inferior courts.

26a
“Local law enforcement had no duty to protect
individuals but only a general duty to enforce the
Laws.” (South v. Maryland, 59 U.S. (How.) 396,
15 L.Ed. 433 (1856)
“What makes the City’s position (denying any
obligation to protect the woman) particularly difficult
to understand is that, in conformity to the dictates of
the law (she) did not carry a weapon for selfdefense. Thus, by rather bitter irony she was
required to rely for protection on the City of New
York which now denies all responsibility to
her.” (Riss v. City of New York, 22 N.Y. 2d. 579
(1968))
“...the fundamental principle that a government
and its agents are under no general duty to
provide public services, such as police
protection, to any particular individual
citizen.” The duty to provide public services is
owed to the public at large, and absent a special
relationship between police and an individual,
NO SPECIFIC LEGAL DUTY EXISTS....”.
(Warren v. District of Columbia, 444 A.2d 1
(D.C.App. 1981)).
“There is no constitutional right to be protected by
the state against being murdered by criminals or
madmen.” (Bowers v. Devot, 7th Circuit U.S.
Court of Appeals, 686 F.2d. 616 (1982)
“The affirmative duty to protect arises not from
the State’s knowledge of the individual’s
predicament or from its expression of intent to help
him, but from the limitations which it has
imposed on his freedom to act on his own
behalf.” “...We held that the so-called “substantive”

27a
component of the Due process clause does not
“require” the State to protect the life, liberty,
and property of its citizens against invasion by
private actors.” Id. At 195. (DeShaney v.
Winnebago County Department of Social
Services, 489 U.S. 189 (1989).
“Law enforcement agencies and personnel have no
duty to protect individuals from the criminal acts of
others; instead their duty is to preserve the
peace and arrest law breakers for the
protection of the general public.” (Lynch v.
N.C. Dept, of Justice, 376 S.E. 2nd 247 (N.C. App.
1989)
Neither the U.S. Constitution nor federal statutes
mandates that law enforcement is obligated to
provided protective services to an individual citizen.
What the U.S. Constitution guarantees is the preexistent “self-help” Second Amendment, “...that the
Right of the People to keep and bear arms shall not
be infringed.” For the purpose, that an individual
may legally act and with the lawful tools
necessary in pursuit of personal security, selfpreservation, self-defense, protection of life and
property, without the prior approval of an nonexistent, artificial, imaginary being, in response to
a violent act of aggression caused by the
unannounced behavior of human nature.
It is further recognized that Defendants
Abercrombie, Louie and Kenoi are key
individuals with an obligation and authority to
prevent the legislative and individual abuse of
authority; however, they allowed and supported this
unconstitutional delegation of unlawful authority to

28a
an unqualified county employee, to create artificial
articles of law to which is exercised unilaterally, as
“arbitrary and capricious” discretionary authority,
...unlimited, uncontrolled, without an avenue or
recourse to appeal or challenge, with the exception of
costly affirmative legal action. Ultimately, the state
legislature and the Hawaii State Attorney
General, is responsible for empowering Defendant
Kubojiri to be the administrator and enforcer of an
unconstitutional, coercive, state statute.
“The power to regulate did not include the
power to prohibit or to impose criminal
penalties for violating regulations, only civil
penalties such as fines. “...a bill of attainder
may affect the life of an individual or may
confiscate his property, or may do both.”
(Fletcher v. Peck, 10 U.S. 87, 6 Cranch 87, 3
L.Ed. 162 (1810)
Plaintiff is placed in the arena of “presumption of
guilt”, based upon the conceptualized theory that
Plaintiff may abuse his constitutional right at
some later date in the future and in order to
prevent such speculative abuse Plaintiff is denied
and prohibited from exercising his individual
second amendment right. This act qualifies to be
scrutinized under the “pains and penalties” clause
of a Bill of Attainder. This is clearly legislative
coercion and punishments in the mode of deprivation
of a constitutional right and being threatened with
criminal Class A, B or C felony charges, fines and
incarceration (H.R.S. 134-6(e)) that will be imposed
should Plaintiff, who is a law abiding citizen of
the United States, exercise a constitutionally
protected right without a permit or rather

29a
permission from a county employee. In the proper
perspective, being denied a constitutional right based
upon the conceptualized theory that if Plaintiff
should choose to exercise his second amendment
right, Plaintiff is perceived as a threat to society.
Thus converting a law abiding citizen, Plaintiff, into
an identifiable potential criminal for exercising a
right that is rightfully Plaintiff’s to begin with. The
provision in the U.S. Constitution granting the right
to all “people” to bear arms is an announced and
declared limitation upon the powers of the
legislature, both federal and state, through the
Second amendment and “the privileges and
immunities” clause of the Fourteenth amendment,
“due process clause” of the Fourteenth
amendment and the Ninth amendment, to enact any
law to the contrary. The exercise of a right
guaranteed by the constitution stands on firmer
grounds and cannot be made subject to the will of
one county employee. It is an authority exercised
without accountability, via state law, through a nonconstitutional official.
“...this action of non-action may proceed from
enmity or prejudice, from partisan zeal or animosity,
from favoritism and other improper influences and
motives easy of concealment, and difficult to be
detected and exposed, it becomes unnecessary to
suggest or comment upon the injustice capable of
being wrought under cover of such power, for
that becomes apparent to everyone who gives to the
subject a moment’s consideration. In fact, an
ordinance which clothes a single individual
with such power hardly falls within the
domain of law, and we are constrained to

30a
pronounce it INOPERATIVE and VOID.” (Yick
Wo v. Hopkins, 118 U.S. 356 (1886).
In defendant Kubojiri’s letter reply dated 29
August 2011, defendant Kubojiri stated that the
Legislature of the State of Hawaii, pursuant to
FIRS section 134-9, empowered or subdelegated
legislative authority to defendant Kubojiri with
discretionary power, to disable a constitutional
right,
without
judicial
process,
in
direct
contravention of the U.S. Constitution’s Fifth
Amendment and Fourteenth Amendment’s “Due
process” clauses.
In the first instance of reasoning, it is a compelling
fact that during the enactment of our constitution it
was identified by persons, (i.e. Aristotle, Plato,
Socrates, Niccolo’ Machiavelli, John Locke, William
Blackstone, Hugo Grotius, Charles de Montesquieu,
St. George Tucker, Justice Joseph Story, John
Stewart Mill, as well as the founding Fathers,
George Washington, Benjamin Franklin, Thomas
Jefferson, Alexander Hamilton, James Madison,
Patrick Henry, John Jay, etc.) that in a compact of
society there were only two “state of existence”: (1) A
state of War and (2) A state of Nature. It was
decided in committee that our U.S. Constitution and
Bill of Rights be based upon the state of nature, “...in
accordance with the laws of nature and
nature’s God.” (Declaration of Independence, 4
July 1776). Therefore, it was founded that a
republican form of government is the best suited
as it would be “a government of laws and not of
men”, and as such, in the concept of ordered liberty
that
government
itself
is
subordinate
to
constitutional law, there is no tolerance for a

31a
constitutional right to be treated as a state
administrative privilege attended to by a local county
employee, unless Plaintiff, who is a constituent of
the Constitution and a citizen of the United States of
America, is in the present instance, perceived as an
“enemy of the state”, should Plaintiff exercises
his freedom and liberty to decide and choose to
enforce his rights and privileges under the Second
Amendment.
The nature of the threat and the extent of the
threat and the “when” and “where” can only be
determined by the perpetrator(s), and not the victim.
The choice to be a victim or not, is in the hands of the
...Plaintiff, who is a constituent of the constitution
and to which, it is acknowledged, the “State” is not.
Firstly, Defendant Kubojiri is not a qualified
member of the judiciary and lacks judicial, legislative
or constitutional authority to decide whether or not a
matter of the intent of the lawful exercise of an
individual constitutional right is a consequence
that is to be subjected to prior evaluation to either
the “rational basis” analysis or “strict scrutiny”
evaluation and analysis. In a criminal instance,
Defendant Kubojiri is legislatively authorized to
apply “”rational basis” test to determine
“probable cause” to act and apply the law,
however, in this instance, there is no “probable
cause”. There is only the crime of deprivation of
an individual constitutional right, without “due
process”. Within the concept of “ordered liberty”
there are only three branches of government in the
State of Hawaii and identified by the Hawaii State
Constitution ...the Executive, Legislative and
Judicial, and it is the burden of the Judicial branch

32a
to decide the correctness and applicability of either
the “intermediate scrutiny” analysis or “strict
scrutiny” analysis according to what is being
challenged and the circumstances presented to the
court. Such analysis cannot possibly be lawful or
applicable to what may or may not occur in a future
instance. The Hawaii State constitution, Article III,
Section 1: “The legislative power of the State shall
be vested in two houses, a senate and a house
of representatives...” The legislative power means,
“law making powers” that were delegated by “...we
the people...”. Therefore, the Hawaii State
Constitution does not allow any other governmental
agency, beyond the senate and the House of
Representatives, power to make law nor does the
constitution grant authority to sub-delegate this law
making power.
The present enforcement of H.R.S. 134-9 and
H.R.S. 134-6, besides presenting a “clear and
present danger” by subverting the supreme
authority of the U.S. Constitution, has cause
irreparable emotional and physical distress to
Plaintiff and has compelled Plaintiff to engage in a
fact finding historical excursion, consuming
hundreds of hours, in search of the truth, which is
unwarranted, to find the meaning of the words and
language of the U.S. Constitutional, Amendment
II. No citizen of the United States, a U.S. military
combat veteran, acting within his own sphere of
expressed sovereign autonomy, of the United
States of America, should be forced to expend time
and energy to define the correctness of the common
language of the United States Constitution that is
both clear and unambiguous.

33a
The Hawaii State legislature can no longer be
entrusted to preserve, protect and defend the
constitution of the United States, as it is evident that
it is subjected to political persuasion. This
denigration of the Second Amendment and the
“...right to keep and bear arms...”, is an usurpation
of sovereign authority. It is “...we the people” who
allow governments to use force and it is not
government’s position to allow “...we the people...” to
employ individual protective force for it is and has
always been a right that was never forfeited by “...we
the people...” to either the federal or state
governments.
Enforcement of H.R.S. 134-9 and H.R.S. 134-6
offends Plaintiff’s constitutional sensibilities, as
Plaintiff has sworn an oath “...to preserve,
protect and defend the Constitution of the
United States and a republican form of
government,
(U.S. Constitution, Article IV,
Section 4) against all enemies both foreign and
domestic.” The existence of H.R.S. 134-9 and H.R.S.
134-6 calls into question if Plaintiff’s loyalty,
patriotism and love of country, with a willingness to
sacrifice life and limb for freedom and liberty with a
republican form of government has been
fraudulently displaced; and presently, “under color
of state law”, forced to support a democracy with a
despotic and democratic form of government
that now perceives armed, law abiding constituents
as “enemies of the state”. To which it is assumed,
that society has now become so complex as to be a
burden upon constitutional self-government and
therefore justifies the instituting of law from a
handful of society’s elite.

34a
“When any court violates the clean and
unambiguous language of the Constitution, a fraud
is perpetrated and no one is bound to obey it.”
(16 Ma. Jur. 2d 177, 178); State v. Sutton, 63
Minn. 147, 65 NW 262, 30 L.R.A. 630 Am. St. 459)
“Constitutional provisions for the security of person
and property should be liberally construed. It is the
duty of the courts to be watchful of constitutional
rights against any stealthy encroachments
thereon. (Boyd v. U.S., 116 U.S. 635)
The government of the United States of America, if
it can no longer defend the rights, privileges and
immunities of the individual citizen, it then defeats
the purpose for which it was conceptualized,
proposed, ratified, announced, published, and
ordained. The federal government can no longer
require or mandate the sacrifice of human lives to
defend the speculative and conceptualized “theory” of
freedom, liberties and “rights” belonging to an
artificial, inanimate, non-existent being we call
“State”. Under any faun of government, under any
national flag, when an individual is forced to depend
upon a third party, who assumes no liabilities, or
duty in the affirmative, to defend and protect
individual life ...it is called “slavery”.
“For the very idea that one man may be
compelled to hold his life, or the means of
living, or any material right essential to the
enjoyment of life, at the mere will of another
seems to be intolerable in any country where
freedom prevails, as being the essence of
slavery itself.” (Yick Wo v. Hopkins, 118 U.S. 356
(1886).

35a
Luny v. Freeman, 92 U.S. 275; Ex parte
Virginia, 100 U.S. 339; Neal v. Delaware, 103
U.S. 370; “Though the law itself be fair on its face,
and impartial in appearance, yet it is applied and
administered by public authority with an evil eye
and an unequal hand, so as practically to make
unjust and illegal discriminations between persons
in similar circumstances, material to their rights,
the denial of equal justice is still within the
prohibition of the constitution. This principal of
interpretation has been sanctioned by this
court (U.S. Supreme Court) in Henderson v.
Mayor of New York, 92 U.S. 259; Chy and Soon
Hing v. Crowley, 113 U.S. 703; S.C. 5 Sup. Ct.
Rep. 730. (YICK WO v. HOPKINS, 118 U.S. 356
(1886).
The extent of “state police powers” are limited in
scope to that of the state legislative sphere of
authority, to which the federal U.S. Constitution,
Second Amendment is beyond the state’s ability to
exercise “discretionary” authority.
COUNT ONE
(42 U.S.C. 1983, 1985, 1986)
Violation of U.S. Constitution, Article I, Section 10,
Cls. 1:
“No State shall ...pass ...any Bill of Attainder...”
“A Bill of Attainder, is a legislative act which
inflicts punishment without judicial trial and
includes any legislative act which takes away the
life, liberty or property of a particular named or
easily ascertainable person or group of persons
because the legislature thinks them guilty of conduct

36a
which deserves punishment” (Cummings
Missouri, 71 U.S. 277, 323 (1987).

v.

“Legislative acts, no matter what their form, that
apply either to named individuals or to easily
ascertainable members of a group in such a way as to
inflict punishment on them without a trial, are “Bills
of Attainder” prohibited under this clause.”
(United States v. Lovett, 328 U.S. 303 (1946))
“A Bill of Attainder is a law, or legal device,
used to outlaw people, suspend their civil rights,
confiscate their property, put them to death, or
otherwise punish them without a trial.” Any
punishment without a trial is a Bill of Attainder
under the doctrine of inclusion of “pains and
penalties.” (Thomas M. Saunders, Certified
Linguist, started the Bill of Attainder Project
after doing a study through the U.S.
Commission On Civil Rights, (CC#93-1-1037),
with cooperation from the Justice Department.
See:
http://www.ise-durant.comitorn/bill
of
attainder/ .
“...a Bill of Attainder may affect the life of an
individual, or may confiscate his property, or may do
both.” Id. (Fletcher v. Peck, 10 U.S. (6 Cranch)
87, 138 (1810)
One of the primary purposes of prohibiting a Bill of
Attainder, U.S. Const. Article I, Section 9, Clause
2: “No Bill of Attainder or ex post facto Law Shall be
passed.” and U.S. Const. Article I, Section 10,
Clause 1: “No state shall ...pass any Bill of
Attainder, ex post facto Law, or Law impairing the
Obligation of Contracts...” was clearly created for the
purpose of maintaining the “separation of powers”, to

37a
insure that the legislative branch, does not assume
the role of the judicial branch.
Clearly, in this instance, H.R.S. 134-9 and H.R.S.
134-6 is viewed as vexatious laws, that are overly
burdensome and is a Bill of Attainder and is
justifiably perceived as state legislative coercion
disguised “under color of law”. The application of
which has been unconstitutionally and unlawfully
subdelegated to a local county employee with the
title of Chief of Police, who is neither an elected
legislator nor a member of the adjudicating judiciary,
nor a recognized constitutional official and neither
accepts nor claim a “duty in the affirmative”.
Duty in the affirmative...is an obligation that is
not obtained on government’s awareness of an
individual predicament or what government will do
or can do for a person, but rather the obligation is
obtained through what is denied or withheld from an
individual. Defendant Kubojiri, who, under the
unconstitutional
authority
of
H.R.S.
134-9,
personally created standards, to which it is expected
to be, wrongfully assumed, as legislative law, which
it is not; and lacks definitiveness and specificity, to
be applied as the “rational basis” test, and use said
standards as legal and lawful foundation and
purpose for denying, disabling, or suspending a
constitutional right, without an avenue for appeal or
recourse. In other words, substituting a personal
opinion for legislative law, and to further define
this personal opinion as “...due process of law...”
contrary to the definition as defined by the U.S.
Constitution. This methodology, in an administrative
mode of criminal application, can be justified to be
grounds to apply the “rational basis” test; however,

38a
this is not a criminal case that would mandate the
“rational basis” test; this is a deprivation case,
and the language of the 2nd Amendment to the U.S.
Constitution, “...shall not be infringed.” portends
that, in this instance, the circumstances mandates
and burdens the court for an evaluation under the
“strict scrutiny” test.
“The full scope of the liberty guaranteed by the Due
Process Clause cannot be found in or limited by the
precise terms of the specific guarantees elsewhere
provided in the Constitution. This “liberty” is not a
series of isolated points pricked out in terms of the
taking of property; the freedom of speech, press and
religion; the right to keep and bear arms; the
freedom from unreasonable searches and seizures;
and so on. It is a rational continuum which, broadly
speaking, includes a freedom from all
substantial
arbitrary
impositions
and
purposeless restraints...and which also recognizes,
what a reasonable and sensitive judgment must, that
certain interests require particularly CAREFUL
SCRUITINY of the state needs asserted to
justify their abridgement.” (Poe v. Ullman,
supra. 367 U.S. 543; Planned Parenthood
Southeastern PA. v. Casey, 505 U.S. 833 (1992).
“State statutory immunity provisions do no apply
to federal civil rights actions. (Morrison v. Jones,
607 F.3d 1269, 1273 (9th Cir. 1979), cert denied,
445 U.S. 962, 64 L. Ed. 2d 237, 100 S. Ct. 1648
(1980). “To construe a federal statute to allow a
state immunity defense “to have controlling
effect would transmute a basic guarantee into
an illusory promise”, which the supremacy
clause does not allow.” (Martines v. California,

39a
444 U.S. 277, 284 n.8, 62 L. Ed. 481, 100 S. Ct. 553
(1980)
“In addition, we note that at oral argument before
this court, the county took the position that it was
not bound by the fourteenth amendment equal
protection clause, apparently on the theory that
the second amendment somehow supercedes it
whenever the state’s regulation of firearms is at
issue. This wholly unsubstantiated position in
itself seems to be evidence of the county’s official
policy of indifference to the fourteenth
amendment.” (Guillory v. County of Orange,
731 F.2d 1379 (9th Cir. 04/25/1984).
To admit to or accept such a conceptualized and
imaginary power is to wrongfully admit that the
United States Constitution and its “...supremacy
clause...”, fifth Amendment, Ninth Amendment, and
Fourteenth Amendment, are no longer valid to
shield, defend and protect individual rights from
“arbitrary and totalitarian” legislative authority of
the state and therefore, would nullify any further
consideration of fulfilling any legal obligations, any
allegiance, to include the ultimate sacrifice of life, to
defend an “impotent” federal government on the part
of the citizen. To do so would be the admittance of
functioning under the existence of a fraudulent and
unconscionable contract (U.S. Constitution):
“...One which no sensible man not under delusion,
duress, or in distress would make, and such as no
honest and fair man would accept.” ( Franklin Fire
Ins. Co. v. Noll, 115 Ind, App 289, 58 N.E.2d 947,
949, 950).

40a
“It lays down no (118 U.S. 356, 373) rules by which
its impartial execution can be secured, or partiality
and oppression prevented. It is clear that giving and
enforcing these notices may, and quite likely will,
bring ruin to the business of those against whom
they are directed, while others, from whom they are
withheld, may be actually benefited by what is thus
done to their neighbors; and when we remember that
this action of non-action may proceed from
enmity or prejudice, from partisan zeal or animosity,
from favoritism and other improper influences and
motives easy of concealment, and difficult to be
detected and exposed, it becomes unnecessary to
suggest or comment upon the injustice capable of
being wrought under cover of such power, for
that becomes apparent to every one who gives to the
subject a moment’s consideration. In fact, an
ordinance which clothes a single individual
with such power hardly falls within the
domain of law, and we are constrained to
pronounce it INOPERATIVE and VOID.” (Yick
Wo v. Hopkins, 118 U.S. 356 (1886).
A contract whose terms of which are excessively
unreasonable, over reaching and one-sided, under
such circumstances, renders such said contract
invalid, null and void. To expect a citizen to be
obligated to sacrifice life in defense of the rights of an
artificial, non-existent, imaginary being called state
and not expect personal security, personal protection
of life, liberty and freedom is slavery.
This illegal and unconstitutional act of priorrestraint, censorship and prohibition of an individual
constitutional right, “under color of law”, can only
exist through the knowing cooperation by and

41a
between Defendants, conspiring together to deny a
U.S. citizen his constitutional right to “...bear
arms...”, either concealed or unconcealed.
COUNT TWO
(42 U.S.C. 1983, 1985, 1986)
Violation of U.S. Constitution, Article I, Section 10:
“No state shall ...pass any ...law impairing the
Obligations of Contract...”.
“The contracting parties in the federal
compact are the people of the several states and
the federal government. (“Thoughts on the
Subject of Amendments”, No. 2, An American
Citizen (Tench Coxe), Independent Gazetteer,
Philadelphia, 10 December 1788)
“...One which no sensible man not under delusion,
duress, or in distress would make, and such as no
honest and fair man would accept.” (Franklin Fire
Inc. Co, v. Noll, 115 Ind. App. 289, 58 N.E.2d.
947, 949, 950)
“It has, since 1810 (Fletcher v. Peck, 6 Cr. 87)
established the doctrine that contracts to which a
state is a party are within the protection of the
constitutional prohibition. ...It has, therefore, been
settled that the term “contract” includes not only
contracts between individuals, private and corporate,
but also contracts, executed and executory, between
the state and individuals, private and corporate.”
“...But the American people have said, in the
constitution of the United States, that ‘no state shall
pass any bill of attainder, ex post facto law, or law
impairing the obligation of contracts.’ In the same
instrument, they have also said, ‘that the judicial

42a
power shall extend to all cases in law and equity
arising under the constitution.’ On the judges of this
court, then, is imposed the high and solemn duty of
protecting, from even legislative violation, those
contracts which the constitution of our country has
placed beyond legislative control; and however
irksome the task may be, this is a duty from
which we dare not shrink.” “...That, anterior to
the formation of the constitution, a course of
legislation had prevailed in many if not in all, of the
states, which weakened the confidence of man in
man, and embarrassed all transactions between
individuals, by dispensing with a faithful
performance of engagements. To correct this
mischief, by restraining the power which produced it,
the state legislatures were forbidden ‘to pass
any law impairing the obligation of contracts,’
that is, of contracts respecting property, under
which some individual could claim a right to
something beneficial to himself; and that since
the clause in the constitution must in
construction receive some limitation, it may be
confined, and ought to be confined, to cases of
this description; to cases with the mischief it
was intended to remedy.” (Trustees of
Dartmouth College v. Woodward, 17 U.S. (4
Wheat.) 518 (1819).
“In discussing this question, the counsel for the
State of Maryland have deemed it of some
importance, in the construction of the constitution, to
consider that instrument not as emanating from the
people, but as the act of sovereign and independent
States. The powers of the general government, it has
been said, as delegated by the States, who alone are

43a
truly sovereign; and must be exercised in
subordination to the States, who alone possess
supreme dominion.
It would be difficult to sustain this proposition. The
Convention which framed the constitution was
indeed elected by the State legislatures. But the
instrument, when it came from their hands, was a
mere
proposal,
without
obligations,
or
pretensions to it. It was reported to the then
existing Congress of the United States, with a
request that it might “be submitted to a convention
of delegates, chosen in each State by the people
thereof, under the recommendation of its legislature,
for their assent and ratification.” This mode of
proceeding was adopted; and by the convention, by
Congress, and by the State legislatures, the
instrument was submitted to the people. They
acted upon it in the only manner in which they can
act safely, effectively, and wisely, on such a subject,
by assembling in convention. It is true, they
assembled in their several States — and where else
should they have assembled? No political dreamer
was ever wild enough to think of breaking down the
lines which separate the States, and of compounding
the American people into one common mass. Of
consequence, when they act, they act in their
States. But the measures they adopt do not, on
that account, cease to be the measures of the
people themselves, or become the measures of
the State government.
From these conventions the constitution
derives its whole authority. The government
proceeds directly from the people; is “ordained
and established” in the name of the people; and

44a
is declared to be ordained “in order to form a
more perfect union, establish justice, ensure
domestic tranquility, and secure the blessings of
liberty to themselves and to their posterity.” The
assent of the States, in their sovereign capacity,
is implied in calling a convention, and thus
submitting that instrument to the people. But
the people were at perfect liberty to accept or
reject it; and their act was final. It required not
the affirmance, and could not be negatived, by
the State governments. The constitution when
thus adopted, was of complete obligation, and
bound the State sovereignties... of this fact on
the case, is emphatically, and truly, a
government of the people. In form and in
substance it emanates from them. Its powers
are granted by them, and are to be exercised
directly on them, and for their benefit.
(McCulloch v. Maryland, 17 U.S. 316 (1819)
It can require no argument to prove, that the
circumstances in this instance constitute a contract.
The United States Constitution is an executory
social contract, created by the free people, acting in
their individual, free, independent, sovereign and
autonomous sphere of authority, who had
conceptualized, created, established and ordained
said constitution and it acts on behalf of said free
people, through elected representatives, with
limited and delegated powers, to acts beneficial
on the behalf of the collective whole and not
individually, and to whom said individual sovereign
autonomy and the individual rights, such as those
belonging to “Kings” and practiced in accordance
with the laws of nature were not forfeited to any

45a
such an elective body. And it is settled fact and a
maxim of law that the U.S. Constitution was not a
ratified product of state legislative bodies in a
compact
agreement
among
the
state
legislatures.
“This is a case of uncommon magnitude. One of the
parties to it is a State; certainly respectable,
claiming to be sovereign. The question to be
determined is, whether this State, so respectable,
and whose claim soars so high, is amenable to the
jurisdiction of the Supreme Court of the United
States? This question, important in itself, will
depend on other, more important still; and, may,
perhaps, be ultimately resolved into one, no less
radical than this “do the people of the United
States form a Nation?” “...To the Constitution of
the United States the term Sovereign, is totally
unknown. There is but one place where it could have
been used with propriety. But, even in that place it
would not, perhaps, have comported with the
delicacy of those, who ordained and established that
Constitution.
They
might
have
announced
themselves “Sovereign” people of the United
States: But serenely conscious of the fact, they
avoided the ostentatious declaration.” “...the
Government of that State to be republican; and my
short definition of such a Government is, one
constructed on this principal, that the Sovereign
Power resides in the body of the people.” “...the
citizens of Georgia, when they acted upon the large
scale of the Union, as a part of the “People of the
United States,” did not surrender the Supreme or
Sovereign Power to that State; but, as to the
purposes of the Union, retained it to

46a
themselves. As to the purpose of the Union,
therefore, Georgia is NOT A SOVEREIGN STATE.
(Chisholm v. Georgia, 2 U.S. (Dall.) 419 (1793).
“The government of the Union, then ...is,
emphatically, and truly, a government of the people.
In form and in substance it emanates from them. Its
powers are granted by them, and are to be exercised
directly on them, and for their benefit.”(McCulloch
v. Maryland, 17 U.S. 404-05).
“The words ‘people of the United States’ and
‘citizens’ are synonymous terms, and mean the
same thing. They both describe the political body
who, according to our republican institutions,
form the sovereignty, and who hold the power and
conduct
the
Government
through
their
representatives. They are what we familiarly call the
‘sovereign people,’ and every citizen is one of this
people, and a constituent member of this
sovereignty.”(Dred Scott v. Sanford, 60 U.S. 404
(1856)).
“The Preamble declares that the Constitution is
ordained and established by “the people of the
United States.” The Second Amendment protects
“the right of the people to keep and bear arms,”
and the Ninth and Tenth Amendments provide that
certain rights and powers are retained by and
reserved to “the people”. “...While this textual
exegesis is by no means conclusive it suggests that
“the people” protected by the Fourth Amendment,
and by the First and Second Amendments, and to
whom rights and powers are reserved in the Ninth
and Tenth Amendments, refers to a class of persons
who are part of a national community or who have
otherwise developed sufficient connection with this

47a
country to be considered part of that community.”
(United States v. Verdugo-Urquidez, 494 U.S.
259 (1990)).
Therefore, within the correct sphere of logical
rationalization, that upon the granting of the
unlimited power of the purse, unlimited power
of the military, and the unlimited power “...to
create all laws necessary and proper for
carrying into execution the forgoing powers...”,
that, “We the People...” have retained, in reserve, a
portion of the ultimate power of ...violent force... to
maintain and assure security and sovereign
authority over the representative government that
the people have created and delegated these
powerful and dangerous authority and powers. There
are only two avenues of revolution: (a) through
peaceful discussions and legislative acts and (b)
through force of arms to overthrow and dismiss a
despotic government. In recorded history, there has
never been a revolution won by the side without the
power to execute controlled violence. To
relinquish all power of arms to government, either
federal or state, the people are no longer
voluntarily subordinate to government but
involuntary
subjects
of
a
democratic
government advocating “socialism” and to
depend upon such government to “arbitrarily and
capriciously” decide whether or not to dispense
individual protection, is the essence of slavery.
“Who are the militia? Are they not ourselves? It is
feared, then, that we shall turn our arms each man
against his own bosom. Congress has no power to
disarm the militia. Their swords, and every other
terrible implement of the soldier, are the

48a
birthright of an American ...The unlimited
power of the sword is not in the hands of either
the federal or state governments, but where I
trust in God it will ever remain, in the hands of
the people.” (Tench Coxe, The Pennsylvania
Gazette, Feb. 20 1788).
“...That to secure these rights, Governments
are instituted among Men, deriving their just
Powers from the consent of the governed. That
whenever any form of Government becomes
destructive to these ends, it is the RIGHT OF
THE PEOPLE to ALTER or to ABOLISH it, and
to institute new Government, laying its
foundation on such Principles, and organizing
its Powers in such form, as to them shall seem
most likely to effect their SAFETY and
HAPPINESS... ...But when a long train of
abuses and usurpations, pursuing invariably
the same Object, evinces a design to reduce
them under absolute Despotism, IT IS THEIR
RIGHT, IT IS THEIR DUTY, to throw off such
Government, and provide new Guards for their
future and SECURITY. (Declaration of
Independence, Clause 2, 4 July 1776)
Henceforth, the existence of the Second
Amendment, in order for “We the People..” to retain
the ability to, if necessary, enforce our sovereign
authority, as free people, in possession of certain
unalienable rights “...in accordance with the
laws of NATURE AND NATURE’S GOD.”
(Declaration of Independence, 4 July 1776). The
Second Amendment to the constitution, “...shall not
be infringed.”, commands attention to the facts
that to “keep and bear arms” requires neither

49a
legislative permission nor a prior demonstration of
urgency or eminent danger to pre-qualify in the
exercise of this constitutional right. The Second
Amendment to the Constitution is a Right retained
by Plaintiff, who is entitled to life, with the tools
necessary, to exercise his indisputable right of
personal
security
and
self-preservation
in
accordance with the laws of nature, and the
right is not an entitlement belonging to an artificial,
non-existent, imaginary being ...we call State,
which was created by the people in
contemplation of law.
The state of Hawaii and Defendants, by enforcing
a prior-restraint, censorship, prohibition of a
constitutional right, that was clearly created to
contribute towards personal self-preservation, the
protection of family members and property, and
then, to collectively contribute, if necessary, to the
whole of the common defense, is a clear act of
impairing the obligation of contract, as
Plaintiff has a clear and unambiguous claim of right
to property in the Second Amendment of the
Constitution of the United States.
Hawaii Revised Statute 134-9 and Hawaii Revised
Statute 134-6 is obviously the regulatory vehicle of
the legislature, “under color of law”, to restrict,
censor, prohibit and deny the free exercise of a
constitutional right, be it either concealed carry or
unconcealed carry. State law may control the mode of
the carry of a firearm on a citizen, be it either
concealed or unconcealed, and the state may also
control the prohibition of location, within reason, e.g.
libraries, court house, schools and hospitals;
however, to completely deny “the right to bear

50a
arms” on the pretense of further justification subject
to the approval, based upon the personal opinion of a
local county employee, induces one to question the
validity of such laws, and to point out that such an
act crosses the acceptable line of constitutionality
and borders on the absurd. It reduces a
constitutional right into a local administrative
privilege, to be administered by someone who
possesses no constitutional legal authority to disable
such a right. It becomes a situation of the “tail
wagging the dog” (George Washington, 1776). Such
authority and enforcement is the ...impairing the
obligation of contract. (Trustees of Dartmouth
College v. Woodward, 17 u.s. (4 Wheat.) 518, 4
L.Ed. 629).
The Constitution confers upon the national
legislature the following: Article I, Section 8, Cls.
15, 16, 18: “The Congress shall have Power ...to
provide for the common defense ...To provide for
calling forth the Militia ...To provide for arming the
Militia ...To make all laws which shall be
necessary and proper for carrying into Execution
the foregoing Powers...”. There exist three levels of
militia the National militia composed of the whole
“we the people”, the unorganized whole of the Union;
the Federal militia composed of those who have
been called forward (compelled) by congress, to
report at a designated point of rendezvous on a
specified date and time and enrolled for federal pay;
and the State Militia composed of those who have
voluntarily reported to a designated point of
rendezvous on a specific date and at a specified time
and enrolled for state military pay and agreed to be
part of a part-time select state militia to be

51a
organized and trained on occasions in accordance
with the disciplines prescribed by the national
congress. The Second Amendment does not make
a distinction between categories of militia, however,
Militia is further identified into two specific classes:
Title 10, Subtitle A, Part I, Chapter 13,
Subsection 311 (10 U.S.C. 311): (a) The organized
militia, which consists of the National Guard and the
Naval militia. (b) The unorganized militia, which
consists of the members of the militia who are
not members of the National Guard or Naval
Militia. The distinction between the organized
militia and the unorganized militia is not
addressed in specificity within the language of the
Second Amendment, and therefore it is mandated to
be read and interpreted in its broadest terms.
Defendants claim that the 2nd Amendment only
applies in the “collective right” mode (Mendoza v.
State of Hawaii, 82 Hawaii 143 (1996)),
applicable only to the state national guard, impedes
and directly contradicts the constitutional obligation
of the national congress’s, demanded by ...We the
people..., responsibility of arming the unorganized
militia, to which is the declaratory objective that
the Second Amendment embraces, ...the keeping and
bearing of personal arms.
COUNT THREE
Violation of U.S. Constitution, Amendment II:
“A well-regulated militia being necessary to the
security of a free state, the Right of the People to
keep and bear arms shall not be infringed.
“The conventions of a number of the States
having at the time of their adopting the Constitution,

52a
expressed a desire, in order to prevent
misconstruction or abuse of its powers that further
declaratory and restrictive clauses should be
added.” (Preamble to the Bill of Rights).
DECLARATORY: “A well regulated militia being
necessary to the security of a free state,...
RESTRICTIVE: “...the Right of the People to keep
and bear arms shall not be infringed.
Hence, the use of only one comma. In the
Congressional Statutes at Large, Vol. 1, Page 97, it
reads: “A well regulated militia being necessary to
the security of a free state, the Right of the People to
keep and bear aims shall not be infringed.” State of
Hawaii’s Constitution, Article I, Bill of Rights,
Section 17: Right to Bear Arms, also contains one
comma.
As noted in the preamble, “...the Constitution...”
and “...its powers...”, it becomes clear that the Bill of
Rights acts as a limitation upon the powers of not
only the national federal government and state
governments, but also a limitation upon the
Constitution itself.
FIRST:
On motion to amend article the fifth, by inserting
the words, ‘for the common defence,’ next to the
words ‘bear arms’.
It passed in the negative. (Failed)
On motion to strike out this article, line the second,
these words, ‘the best,’ and insert in lieu thereof
‘necessary to the,’.
It passed in the affirmative. (Passed)

53a
On motion, on article the fifth, to strike out the
word ‘fifth,’ after ‘article the,’ and insert ‘fourth,’ and
amend the article to read as follows: “A well
regulated militia being necessary to the
security of a free state, the right of the people
to keep and bear arms shall not be infringed.”
It passed in the affirmative. (Passed)
(Journal of the Senate of the United States of
America, Page 77, 24 August 1789)
Clearly, with specificity, with purpose and without
ambiguity, the words “for the common defence”
was left out of the second amendment. It was meant
that “...the right of the people to keep and bear
arms shall not be infringed.” was not limited to
the “collective” states rights, but rather satisfied the
main objective of the “first law of nature...” selfpreservation and self-defense, and if and when
required to organize and assemble “for the
common defence” in support of the artificial being
we call “State”. The “State” is dependant upon the
sovereign and not the sovereign dependant upon the
“State”.
SECOND:
Digest of the Constitution
Rights of the citizen declared to be:
Line Four: To keep and bear arms,...
Line Sixteen: That the enumeration of certain
rights shall not operate constructively against
the retained rights,....
(Elliot’s Debates, Volume I, Page XV, United
States Government website “The Library of

54a
Congress” + “American Memory” (link to actual
page).)
It is understood that line sixteen defines the nature
of the Ninth Amendment: “The enumeration in the
Constitution, of certain rights, shall not be construed
to deny or disparage others retained by the people.”
In context, the state legislature is forbidden and
cannot claim and use the declaratory clause of the
Second Amendment, “A well regulated militia being
necessary to a free state...”, as grounds and
foundation for a claimed right and exert that false
claim as authority to prohibit the restrictive
clause, “...the Right of the People to keep and bear
arms shall not be infringed.”
THIRD:
“The Second Amendment right to keep and bear
arms therefore, is a right of the individual
citizen to privately possess and carry in
peaceful manner firearms and similar arms. ...If
in fact this language creates a right protecting the
states only, there might be a reason for it to be
inserted in the federal Constitution but no reason for
it to be inserted in state constitutions. State bills of
rights necessarily protect only against action by the
state, and by definition a state cannot infringe its
own rights; to attempt to protect a right
belonging to the state by inserting it in a
limitation of the state’s own powers would
create an absurdity. The fact that the
contemporaries of the framers did insert these words
into several state constitutions would indicate clearly
that they viewed the right belonging to the
individual citizen, thereby making it a right which

55a
could be infringed either by the state or federal
government and which must be protect against
infringement by both.
“In conclusion is thus inescapable that the history,
concept, and wording of the second amendment to
the Constitution of the United States, as well as its
interpretation by every major commentator and
court in the first half century after its ratification,
indicates that what is protected is an
individual right of a private citizen to own and
carry firearms in a peaceful manner.” (The
Right to Keep and Bear Arms, Report of the
Subcommittee on the Constitution of the
United
States
Senate,
Ninety-Seventh
Congress, Second Session, February 1982)
FOURTH:
“The Congress finds that the rights of citizens (A)
to keep and bear arms under the second
amendment to the United States Constitution;
(B) to security against illegal and unreasonable
searches and seizures under the fourth amendment;
(C) against uncompensated taking of property,
double jeopardy, and assurance of due process under
the
fifth
amendment;
and
(D)
against
unconstitutional exercise of authority under the
ninth and tenth amendments.” (The Firearms
Owners’ Protection Act (1986)).
FIFTH:
“The Congress finds the following: (1) The Second
Amendment to the United States Constitution
provides that the right of the people to keep and
bear arms shall not be infringed. (2) The Second
Amendment to the United States Constitution

56a
protects the rights of individuals, including
those who are not members of a militia or
engaged in military service or training, TO
KEEP AND BEAR ARMS. ...(7) The liability
actions commenced or contemplated by the Federal
Government, States, municipalities, and private
interest groups and others are based on theories
without foundation in hundreds of years of common
law and jurisprudence of the United States and do
not represent a bona fide expansion of the common
law. The possible sustaining of these actions by a
maverick judicial officer or petit jury would expand
civil liability in a manner never contemplated by the
framers of the Constitution, by congress, or by the
legislatures of the several States. Such an
expansion of liability would constitute a
deprivation of the rights, privileges and
immunities guaranteed to a citizen of the
United
States
under
the
Fourteenth
Amendment to the United States Constitution.”
(Protection of Lawful Commerce in Arms Act ,
October 2005)
SIXTH:
“CONSTITUTION”, 14. — 2: Secures to the
people the right to keep and bear arms.
(Bouvier’s Law Dictionary, “Adopted to the
Constitution and Laws of the United States of
America and of the several States of the
American Union, John Bouvier, Revised 6th Ed.
(1856).
It is clear that the Firearms Owners Protection
Act and the Protection of Lawful Commerce in

57a
Arms Act are acts of the national congress in the
exercise of their lawful legislative powers.
“This Constitution, and the Laws of the United
States which shall be made in pursuance
thereof; and all Treaties made, or which shall be
made, under the Authority of the United States,
shall be the Supreme Law of the Land; and the
JUDGES in every State shall be bound thereby,
any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding.”
(United States Constitution, Article VI, Clause
2)
Since the national Congress acts on behalf of the
whole of we the people, the rightful sovereigns, their
laws become the “Supreme Law of the Land”,
thus we find that Congress found it necessary to
invoke the language of the rights, privileges, and
immunities clause of the Fourteenth Amendment to
protect individual rights, into the Protection of
Lawful Commerce in Arms Act. Through the use
of the “rights, privileges, and immunities” clause
makes the Fourteenth Amendment officially an
amendment mandated for consideration in any
violation of Second Amendment rights.
“...No State shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States;...” (U.S. Const.,
Amendment XIV, Ratified 28 July 1868)
“This “liberty” is not a series of isolated points
pricked out in terms of the taking of property; the
freedom of speech, press, and religion; the right to
keep and bear arms; the freedom from
unreasonable searches and seizures; and so on. It is

58a
a rational continuum which, broadly speaking,
includes a freedom from all substantial
arbitrary
impositions
and
purposeless
restraints, ...and which also recognizes, what a
reasonable and sensitive judgment must, that
certain
interests
require
particularly
CAREFUL SCRUITINY of the state needs
asserted to justify their abridgement.”
(Planned Parenthood of Southeastern PA. v.
Casey, 505 U.S. 833 (1992).
“The Preamble declares that the Constitution is
ordained and established by “the people of the
United States.” The Second Amendment protects
“the right of the people to keep and bear arms,”
and the Ninth and Tenth Amendments provide that
certain rights and powers are retained by and
reserved to “the people”. “...While this textual
exegesis is by no means conclusive it suggests that
“the people” protected by the Fourth Amendment,
and by the First and Second Amendments, and to
whom rights and powers are reserved in the Ninth
and Tenth Amendments, refers to a class of persons
who are a part of a national community or who have
otherwise developed sufficient connection with this
country to be considered part of that community.”
(United States v. Verdugo-Urquidez, 494 U.S.
259 (1990)
“The words ‘people of the United States’ and
‘citizens’ are synonymous terms, and mean the
same thing. They both describe the political body
who, according to our republican institutions,
form the sovereignty, and who hold the power and
conduct
the
Government
through
their
representatives. They are what we familiarly call the

59a
‘sovereign people’ and every citizen is one of
this people, and a constituent member of this
sovereignty.” (Bred Scott v. Sanford, 60 U.S. 404
(1856).
“Surely a most familiar meaning is, as the
Constitution’s Second Amendment “Keep and bear
arms” and Black’s Law Dictionary, at 214, indicate
“wear, bear or carry ...upon the person or in the
clothing or in a pocket, for the purpose... of being
armed and ready for offensive or defensive action in
a case of conflict with another person (s).” (United
States v. Muscarello,
524 U.S. 125 (1998),
Justice Ruth Bader Ginsberg).
The United States Court of Appeals for the Ninth
Circuit in Silveira v. Lockyer, No. 01-150098,
CV-00-00411-WBS Opinion, was found to be
flawed,
unsubstantiated,
unpersuasive,
and
doctrinally unsound. Several points of law subverts
the flawed “collective rights” doctrine: (a) The court
failed to provide an authentic quote from one of the
Founding Fathers, their contemporaries, or a 19th
Century Supreme Court decision, indicating that the
Second Amendment was meant to apply solely to a
well-regulated militia. (b) The court failed to
provided legislative history or documentation
supporting the “collective” decision and (c) The
court’s implied attempt at judicial fraud through
the specific attempt at reconstructing James
Madison’s Federalist Paper No.46, omitting a large
and pertinent part that specifically addresses the
“right of the people” to keep and bear arms; and (d)
The court seriously considered as credible proof,
Michael A. Bellesiles, Gun Control: A Historical
Overview, to which it has been proven that to have

60a
been a fraud and fabricated facts by Bellesiles, to
which he was essentially denounced by the academic
community, fired from his tenure at the University,
banned from the university, and his book retracted
from the retail outlets and a public apology issued by
the publisher. Based upon the aforementioned
flawed opinion of the Ninth Circuit Court of Appeals,
it is subjected to challenge and until such time
cannot be construed as an obstruction to legal action
and legal standing.
In finality, it is the indisputable fact that the
Second Amendment is an individual right.
“Putting all of these textual elements together, we
find that they guarantee the individual right to
possess and carry weapons in case
of
confrontation. This meaning is strongly confirmed
by the historical background of the Second
Amendment. We look to this because it has always
been widely understood that the second Amendment,
like the First and Fourth Amendments, codified
a pre-existing right.
COUNT FOUR
Violation of U.S. Constitution, Amendment IX
“The enumeration in the Constitution, of certain
rights, shall not be construed to deny or disparage
others retained by the people.”
It
is
clear
through
national
legislative
interpretation that state legislative bodies as well as
the national legislative body cannot use the
“declaratory” clause, “A well regulated militia
being necessary to the security of a free state...”, as
grounds
and
foundation
for
denying
the
“restrictive” clause of an individual right, “...the

61a
Right of the People to keep and bear arms shall not
be infringed.”, as the construction of the Right
belongs in the Bill of Rights, a document which
operates exclusively to the benefit of the individual
citizen since its inception with the Magna Carta and
under William and Mary, in which, the first eight
amendments, operates solely on behalf of and for the
benefit of the individual citizen.
Interpretation:
“The enumeration of certain rights shall not
operate constructively against the retained
rights.” (Digest of the Constitution, Elliot’s
Debates, Volume I, Right of the citizen
declared to---)
COUNT FIVE
Violation of U.S. Constitution, Amendment XIV
“...No State shall make or enforce any law
which shall abridge the privileges and
immunities of citizens of the United States...”
Beyond contestation and a maxim of law, an
individual constitutional right is a part of the
Constitution and is therefore fundamental law and
an “immunity” against invasion by both the federal
and state legislative powers and authority. As such,
this “immunity” is not subject to civil liability,
federal or state obligation, or state license/permit
regulatory schemes, other than, in a limited sense, to
identify, screen out and deny prohibited persons, as
described in H.R.S. 134-7. Having qualified under
H.R.S. 134-7, there is probable cause to deny a
license/permit.

62a
The state license/permit regulatory scheme is not to
be construed, “under color of law”, as
Constitutional authority to prohibit, deny, render
meaningless or impotent, a Right retained by the
people. The said “immunity” of the Right to bear
arms, is not a privilege or benefit originating under
the legislative power of one state, nor is it a privilege
or benefit bestowed by the state legislative body. The
state may plagiarize the Second Amendment;
however, it may not claim original rights or expand
or restrict and imply alternative meanings to the
original language and intent contrary to U.S.
constitutional law. To do so would constitute a fraud
and an attempt at encroachment through deception
upon the citizen of the United States, nor does it
make said right a property of the state.
“...When therefore a treaty is constitutionally
made, ratified and published by us, it immediately
becomes binding on the whole nation, and
superadded to the laws of the land, without the
intervention of state legislatures. ...whereas laws
and statutes derive their force from being the acts of
a legislature competent to passing of them; ...for
state legislatures are not competent to the
making of such compacts or treaties, so neither
are they competent in that capacity,
authoritatively to decide on or ascertain the
construction and sense of them. ...but, the case
between laws, and the compacts or treaties is in
this widely different; for when doubts arise
respecting the sense and meaning of a treaty, they
are so far from being cognizable by a state
legislature, that the United States in congress
assembled, have no authority to settle and determine

63a
them: for as the legislature only, which
constitutionally passed a law, has power to
revise and amend it, so the sovereigns only,
who are parties to the treaty, have power to mutual
consent and posterior articles, to correct and explain
it. ...From these principles it follows of necessary
consequence, that no state has a right by
legislative acts to decide and point out the
sense in which their particular citizens and
courts shall understand this or that article of a
treaty. It is evident that a contrary doctrine would
not only militate against the common and
established maxims and ideas relative to this
subject, but would prove no less inconvenient in
practice than it is irrational in theory; for in that
case the same article of the same treaty might
by law be made to mean one thing in New
Hampshire, another thing in New York, and
neither the one nor the other of them in
Georgia.
“Resolved, That the legislature of the several
states cannot of right pass any act or acts for
interpreting, explaining, or construing a national
treaty, or any part or clause of it; not for
restraining, limiting, or in any manner impeding,
retarding or counteracting the operation and
execution of the same; for that on being
constitutionally made, ratified and published, they
become in virtue of the confederation, part of the law
of the land, and are not only independent of the
will and power of such legislatures, but also binding
and obligatory on them.” “By Order of Congress”,
Written by John Jay, Signed by Arthur St.

64a
Clair, President, Friday, April 1787 (A View of
the Constitution, 2d Ed., William Rawle, L.L.D.)
“The Fourteenth Amendment makes the Second
Amendment right to keep and bear arms fully
applicable to the States.” (McDonald et al v. City
of Chicago, 130 S. CT. 3020 (2010).
RELIEF BEING SOUGHT
1.

Permanent injunction of H.R.S 134.

2. Immediate issuance of a Concealed Carry
Weapons Permit or an Unconcealed Carry Weapons
Permit for a period of not less than three years.
*Note: The word used is “Weapons” which includes
but limited to a loaded firearm and allows for other
instruments of lesser than deadly force. The Second
Amendment is not limited to firearms but includes
all arms for individual personal offensive and
defensive use, including those arms that did not exist
at time of the amendment’s ratification, e.g. stun
gun, tasers, mace spray, switch blade etc..
2. Punitive damages
US$1,000,000.00.

to

be

not

less

than

3. Compensatory
damages
for
causing
“irreparable harm” to be determined at trial but to be
not less than US$1,000,000.00.
4. All costs of court, reasonable attorney fees to
be paid by Defendants.
CERTIFICATE
1. Bold face and underscored words are for
emphasis.
2. Exception to local court rules, as number of
pages, words, paragraphs and lines exceeded due to
necessity and number of disputed factual issues

65a
committed by both the state and county applicable to
a single issue, “bear arms...”.
3. Content: 53 pages;
paragraphs; and 1, 511 lines.

15,590

words;

264

Respectfully Submitted,

GEORGE K. YOUNG, JR.
1083 Apono Place
Hilo, Hawaii 96720
Tel: (808) 959-5488
Cellphone: (808) 895-1735
Email: Yorozuyo@aol.com

66a
APPENDIX B
_________
STATE OF HAWAI‘I
DEPARTMENT OF THE ATTORNEY GENERAL

425 QUEEN STREET
HONOLULU, HAWAI‘I 96813
(808) 586-1500
_______
DAVID Y. IGE
GOVERNOR
RUSSELL A. SUZUKI
ATTORNEY GENERAL
DANA O. VIOLA
DEPUTY ATTORNEY GENERAL
_______
September 11, 2018
_______
Op. No. 18-1
_______
The Honorable Douglas S. Chin
Lieutenant Governor
State of Hawai‘i
State Capitol, Executive Chambers
415 South Beretania Street
Honolulu, Hawai‘i 96813
Dear Lieutenant Governor Chin:
Re: Availability of Unconcealed-Carry Licenses

67a
This letter responds to your request for a formal
legal opinion clarifying the authority of chiefs of
police to issue licenses permitting the unconcealed
carry of firearms.
Your inquiry arises from ongoing litigation
challenging the constitutionality of a portion of
section 134-9, Hawai‘i Revised Statutes (HRS), which
provides that “[w]here the urgency or the need has
been sufficiently indicated, the respective chief of
police” may issue a license authorizing an otherwisequalified applicant who “is engaged in the protection
of life and property” to carry an unconcealed firearm
within the county. In Young v. Hawaii, a divided
panel of the Ninth Circuit construed this provision as
“[r]estricting open carry to those whose job entails
protecting life or property,” such as “security
guard[s].” 896 F.3d 1044, 1071 (9th Cir. 2018). The
panel held that, so construed, the unconcealed-carry
provision violates the Second Amendment. Id. Both
the County of Hawai‘i and the State of Hawai‘i have
announced that they intend to seek panel rehearing
or rehearing en banc of that decision.
For the reasons set forth below, we advise that the
Young panel’s construction of section 134-9, HRS, is
overly restrictive. By its plain text, section 134-9
does not limit unconcealed-carry licenses to persons
whose job entails the protection of life and property,
but authorizes the issuance of such licenses to
anyone “engaged in the protection of life and
property” who demonstrates a sufficient “urgency” or
“need” to carry a weapon. Furthermore, without
attempting to set forth a comprehensive list of
eligible recipients, we advise that a private
individual would likely satisfy the statutory criteria

68a
for an unconcealed-carry license where he or she
identifies a need for protection that significantly
exceeds that held by an ordinary law-abiding citizen,
and otherwise satisfies the statutory requirements
for possessing and carrying a firearm.
I.

QUESTIONS PRESENTED AND SHORT
ANSWERS.

1. Does section 134-9, HRS, limit the issuance of
unconcealed-carry licenses to private security officers
and other individuals whose jobs entail protecting
life and property?
SHORT ANSWER:
No. Section 134-9, HRS,
authorizes the issuance of unconcealed-carry licenses
to any qualified individual who demonstrates a
sufficient “urgency” or “need” to carry a firearm and
is “engaged in the protection of life and property.”
2. What standards should chiefs of police apply
in adjudicating applications for unconcealed-carry
licenses?
SHORT ANSWER:
An applicant must satisfy
four criteria to obtain an unconcealed-carry license:
He or she must (1) meet the objective qualifications
for possessing and carrying a firearm; (2)
demonstrate a sufficient need to carry a firearm for
the purpose of protecting life and property; (3) be of
good moral character; and (4) present no other
reason justifying the discretionary denial of a license.
To satisfy these requirements, an applicant must
demonstrate, among other things, that he or she has
a need for protection that substantially exceeds that
held by ordinary law-abiding citizens.

69a
II.

BACKGROUND.

Hawai‘i has imposed limits on the public carry of
firearms for over 150 years. In 1852, the Legislative
Council enacted a statute making it a criminal
offense for “[a]ny person not authorized by law” to
“carry, or be found armed with, any . . . pistol . . . or
other deadly weapon . . . unless good cause be shown
for having such dangerous weapons.” 1852 Haw.
Sess. Laws Act of May 25, 1852, § 1 at 19; see
Republic of Hawaii v. Clark, 10 Haw. 585, 587-88
(1897). In 1927, the territorial legislature enacted a
statute, modeled on the Uniform Firearms Act, that
required individuals to obtain a license in order to
“carry a pistol or revolver,” and provided that
individuals could obtain such a license upon showing
“good reason to fear an injury to his person or
property” or “other proper reason for carrying” a
firearm. 1927 Haw. Sess. Laws Act 206, §§ 5, 7 at
209; see S. Stand. Comm. Rep. No. 322, in 1927
Senate Journal, at 1023. In 1934 and 1961, the
Legislature amended the statute to substantially its
present form. See 1933 (Special Sess.) Haw. Sess.
Laws Act 26, § 8 at 39 (Jan. 9, 1934); 1961 Haw.
Sess. Laws Act 163, § 1 at 215 (July 8, 1961).
Today, Hawai‘i law provides that, subject to a
number of exceptions, “[a]11 firearms shall be
confined to the possessor’s place of business,
residence, or sojourn.” HRS §§ 134-23, 134-24, 13425. It is generally unlawful “for any person on any
public highway to carry on the person, or to have in
the person’s possession, or to carry in a vehicle any
firearm loaded with ammunition.” HRS § 134-26; see
HRS § 134-9(c). Members of the armed forces, mail
carriers, and persons employed by the State or its

70a
subdivisions are exempt from this limit “while in the
performance of their respective duties.” HRS § 13411(a). Individuals may also carry lawfully acquired
firearms “while actually engaged in hunting or target
shooting.” HRS § 134-5(a); see HRS § 134-5(c).
In addition, individuals may lawfully carry a pistol
or revolver within a county if they obtain a license
from the county’s chief of police. HRS § 134-9.
Section 134-9, HRS, authorizes police chiefs to issue
two types of carry licenses. A chief of police may
issue a concealed-carry license “[i]n an exceptional
case, when an applicant shows reason to fear injury
to the applicant’s person or property” and satisfies
certain age, citizenship, and other statutory
requirements. HRS § 134-9(a)-(b). A chief of police
may also grant a unconcealed-carry license to a
qualified applicant “[w]here the urgency or the need
has been sufficiently indicated,” the applicant “is
engaged in the protection of life and property,” and
the applicant is “of good moral character.” HRS
§ 134-9(a).
III. ANALYSIS.
A.

Section 134-9, HRS, Does Not Limit
Unconcealed-Carry Licenses To Private
Security Officers.

We advise that section 134-9, HRS, does not limit
the issuance of unconcealed-carry licenses to
individuals whose jobs entail protecting life and
property. The plain text of the statute, the legislative
history, and the applicable case law all support this
conclusion.
Our analysis begins with the statute’s text. See Del
Monte Fresh Produce (Hawaii), Inc. v. Int’l Longshore

71a
& Warehouse Union, Local 142, AFL-CIO, 112
Hawai‘i 489, 499, 146 P.3d 1066, 1076 (2006). As
relevant, section 134-9, HRS, imposes two
requirements that an otherwise qualified applicant
must satisfy in order to obtain an unconcealed-carry
license: the applicant must (1) “sufficiently
indicate[ ]” “the urgency or the need” to carry an
unconcealed firearm, and (2) be “engaged in the
protection of life and property.” HRS § 134-9(a).
It is plain that the first of these requirements does
not limit unconcealed-carry licenses to private
security officers. A private individual, no less than a
security guard, may identify an “urgen[t]” or
compelling “need” to carry an unconcealed firearm.
Indeed, the statute’s use of the disjunctive phrase
“the urgency or the need” indicates that the
Legislature intended to permit the issuance of
unconcealed-carry licenses for multiple reasons.
Construing the statute to authorize such licenses for
one reason only -- that the applicant’s job duties
require a firearm -- would contravene that textual
choice.
Nor does the requirement that an applicant be
“engaged in the protection of life and property” limit
unconcealed-carry licenses to private security
officers. The words “engage in” mean simply “to do or
take part in something.” Merriam Webster’s
Dictionary (2018). In ordinary usage, an individual
may “take part in” an activity even though his job
duties do not require it. See Sierra Club v. Castle &
Cooke Homes Hawai‘i, Inc., 132 Hawai‘i 184, 191-92,
320 P.3d 849, 856-57 (2013) (“Under general
principles of statutory construction, courts give
words their ordinary meaning unless something in

72a
the statute requires a different interpretation.”
(citation omitted)). And other provisions of the
statute use the words “engaged in” to refer to nonprofessional activities in this way. Section 134-5(c),
HRS, authorizes a person to “carry unconcealed and
use a lawfully acquired pistol or revolver while
actually engaged in hunting game mammals.” HRS
§ 134-5(c) (emphasis added). Likewise, sections 134-3
and 134-5(a), HRS, authorize the use or carrying of
firearms while “engage[d] in” hunting or target
shooting. HRS §§ 134-3(a)(3), 134-5(a).
Furthermore, when the Legislature wished to limit
firearms to individuals engaged in the performance
of their professional duties, it expressly said so.
Section 134-11(a), HRS, authorizes a variety of
officers to carry firearms “while in the performance
of their respective duties.” HRS § 134-11(a)(2), (4)(5). Similarly, section 134-31, HRS, requires
individuals to obtain a license in order to “engage in
the business to sell and manufacture firearms.” HRS
§ 134-31 (emphasis added). The Legislature notably
did not include similar language in section 134-9,
HRS, and it would be improper in our view to read
such limits implicitly into the statute’s text.
The legislative history of section 134-9, HRS,
reinforces this interpretation. For several decades
prior to 1961, section 134-9 only authorized chiefs of
police to issue concealed-carry licenses. See 1933
(Special Sess.) Haw. Sess. Laws Act 26, §8 at 39. In
1961, the Legislature amended the statute to
authorize the issuance of unconcealed-carry licenses,
as well. 1961 Haw. Sess. Laws Act 163, § 1 at 215. In
the
committee
report
accompanying
that
amendment, the Senate Judiciary Committee

73a
explained that this change was “designed to extend
the permit provisions to those employed as guards or
watchman and/or to persons engaged in the
protection of life and property and to further
authorize such licensees to carry the described
firearms unconcealed on their persons.” S. Stand.
Comm. Rep. No. 558, in 1961 Senate Journal, at 874
(emphasis added). This report thus makes clear that
the drafters intended to reach not only “those
employed as guards or watchman” but, more broadly,
any “persons engaged in the protection of life and
property.” Although “guards” and “watchm[e]n” may
have been the principal persons the Legislature had
in mind, legislation is not limited to the principal
mischief it is designed to address, and that is
particularly so where the drafters expressly
contemplated it would extend more broadly.
The limited case law discussing section 134-9, HRS,
and analogous statutes is also consistent with our
understanding. To our knowledge, prior to the Ninth
Circuit panel decision in Young, no court suggested
that section 134-9 limits open-carry licenses to
private security officers. To the contrary, in Baker v.
Kealoha, the District Court for the District of Hawai‘i
observed that section 134-9 “provides for exceptions
in cases where an individual demonstrates an
urgency or need for protection in public places.” 2012
WL 12886818, at *18 (D. Haw. Apr. 30, 2012),
vacated and remanded on other grounds, 679 F.
App’x 625 (9th Cir. 2017). Moreover, courts and
agencies in other states have construed comparable
statutes -- which likewise permit issuance of carry
licenses upon a showing of adequate “need” or
“cause” -- to authorize licenses for private

74a
individuals, and not just professional security guards
and the like. See, e.g., Woollard v. Gallagher, 712
F.3d 865, 870 (4th Cir. 2013) (Maryland); Drake v.
Filko, 724 F.3d 426, 428 (3d Cir. 2013) (New Jersey);
Kachalsky v. County of Westchester, 701 F.3d 81, 8687 (2d Cir. 2012) (New York).
Nor does past practice justify a different
conclusion. The Young panel placed substantial
weight on the premise that, to its knowledge, “no one
other than a security guard -- or someone similarly
employed -- ha[s] ever been issued an open carry
license.” 896 F.3d at 1070. But even if that premise
were correct, a practice of that kind would not justify
adopting a reading that the statute’s text cannot
bear. Moreover, there is little evidence in the court
record to back up the panel’s assertion. Although the
Department of the Attorney General has published
statistics on firearm license applications, those
reports date back only to the year 2000 -- 39 years
after the statute was enacted, and nearly 150 years
after the first restriction on public carry was
imposed. See Dep’t of Attorney Gen., Crime
Prevention & Justice Assistance Div., Research &
Statistics Branch, http://ag.hawaii.gov/cpja/rs/ (last
visited Sept. 10, 2018) (collecting reports). And those
reports, starting in 2004, state only the number of
private individuals who applied for (and were
granted or denied) a concealed-carry license; they do
not state the number of private individuals who
applied for (and were granted or denied) an
unconcealed-carry license. What is more, out of the
handful of instances before 2004 in which the reports
state simply that private individuals applied for
“carry license[s],” without specifying that the license

75a
was for concealed- or unconcealed-carry, individuals
were granted such licenses in two cases. See Dep’t of
Attorney Gen., Firearm Registrations in Hawaii,
2001, at 7, http://ag.hawaii.gov/cpja/files/2013/01/
Firearms-Registration-2001.pdf (last visited Sept. 10,
2018).
In short, the plain text of the statute does not limit
unconcealed-carry licenses to individuals employed
as private security officers. And other indicia of
statutory meaning support that straightforward
reading. Accordingly, we advise that private
individuals as well as security officers are eligible to
obtain licenses to carry unconcealed firearms under
section 134-9, HRS.
B.

Standards
For
Adjudicating
Unconcealed-Carry Applications.

You have also asked us to clarify the standards
that police chiefs should apply in adjudicating
applications for unconcealed-carry licenses. By its
text, section 134-9, HRS, establishes four basic
criteria that an applicant must satisfy to obtain an
unconcealed-carry license: An applicant must (1)
meet the objective qualifications for possessing and
carrying a firearm; (2) demonstrate a sufficient need
to carry a firearm in order to protect life and
property; (3) be of good moral character; and (4)
present no other reason that justifies the exercise of
discretion to deny a license. We consider each of
these criteria in turn below.
1.

Objective Qualifications.

As an initial matter, section 134-9, HRS, requires
every applicant for an unconcealed-carry license to
meet three objective qualifications. Every applicant

76a
must (1) be “a citizen of the United States,” (2) be “of
the age of twenty-one years or more,” and (3) not be
“prohibited under section 134-7 from the ownership
or possession of a firearm.” HRS § 134-9(a). Section
134-7, HRS, further provides that an individual may
not own, possess, or control a firearm if he is barred
from possessing a firearm by federal law, is a fugitive
from justice, or fails to satisfy the statute’s other
prerequisites. HRS § 134-7; see 18 U.S.C. § 922(g)(1)(9), (n) (listing federal requirements).
An application for an unconcealed-carry license
must therefore be denied if the applicant fails to
satisfy any of these objective criteria. And the statute
specifies, in part, the procedures a police chief or his
designated representative must follow prior to
making that determination. It states that such
officials “shall perform an inquiry on [the] applicant
by using the National Instant Criminal Background
Check System, to include a check of the Immigration
and Customs Enforcement databases where the
applicant is not a citizen of the United States, before
any determination to grant a license is made.” HRS §
134-9(a).
2.

Sufficient Need To Carry A Firearm.

Section 134-9, HRS, further requires that each
applicant must “sufficiently indicate[ ]” that he or she
has an “urgency” or “need” to carry a firearm and is
“engaged in the protection of life and property.” Id.
As we have explained, this language does not limit
carry licenses to private security officers. See supra
section III.A. Case law from other states is
instructive, however, in discerning what it does
require. Courts interpreting virtually identical laws
have held that “a simple desire to carry a weapon is

77a
not
enough”
to
satisfy
their
substantive
requirements. Kachalsky, 701 F.3d at 86-87. “Nor is
living or being employed in a ‘high crime area[ ].’ ” Id.
at 87. Rather, an applicant typically must
demonstrate that he or she has a need to carry a
firearm for protection that substantially exceeds the
need possessed by ordinary law-abiding citizens. See
Drake, 724 F.3d at 428 & n.2; Woollard, 712 F.3d at
870; Kachalsky, 701 F.3d at 86-87.
In our view, a similar standard is appropriate in
interpreting section 134-9, HRS. Section 134-9
requires that an applicant “sufficiently” demonstrate
an “urgency” or “need” to carry a firearm -- all words
that connote an immediate, pressing, and heightened
interest in carrying a firearm. Furthermore, the
applicant must be “engaged in the protection of life
and property,” language that requires that the
individual be actively “tak[ing] part in” such
protection, not merely exhibit a generalized concern
for safety. Particularly given that Hawaii’s modern
firearm laws were designed to mirror the uniform
firearm laws adopted by many other states, see S.
Stand. Comm. Rep. No. 322, in 1927 Senate Journal,
at 1023, we therefore believe that much the same
standard adopted by those states is appropriate in
interpreting section 134-9. This provision, we
conclude, requires applicants for an unconcealedcarry license to demonstrate that they have a need to
carry a firearm for protection that substantially
exceeds the need possessed by ordinary law-abiding
citizens.
Without attempting to offer an exhaustive list of
applicants who could satisfy this standard, we
believe that the following illustrative examples could

78a
present a sufficient urgency or need for protection
under the statute:
(a) A person who has suffered serious domestic
abuse from a former partner who has violated
previous protective orders;
(b) A victim of stalking who has received credible
threats of death or serious bodily harm from his or
her stalker;
(c) A political activist who has received credible
threats of death or serious bodily harm due to his or
her political activity;
(d) A witness to a crime who has received credible
threats, or is testifying against an organization
known to use violence to intimidate witnesses;
(e) A person who faces heightened risk of attack
or violence due to his or her profession, such as a
private security officer, a psychiatrist or physician
with an obsessive or threatening patient, an attorney
with a former client or opposing party who has made
credible threats of death or serious bodily harm, a
business owner with a violent former employee who
has made credible threats of death or serious bodily
harm, an entertainer with an obsessive fan who has
made credible threats of death or serious bodily
harm and engaged in stalking; or a person who faces
a high risk of armed robbery because his or her job
requires stocking ATMs or otherwise transporting
large quantities of cash.
3.

Good Moral Character.

An applicant for an unconcealed-carry license must
also be a person “of good moral character.” HRS
§ 134-9. As courts in other jurisdictions have
concluded, we think it plain that a person does not

79a
demonstrate “good moral character” where there is
reliable and credible evidence that, if issued a
license, the applicant may create a risk to public
safety. See Caputo v. Kelly, 117 A.D.3d 644, 644
(N.Y. App. Div. 2014); Hider v. Chief of Police, City of
Portland, 628 A.2d 158, 161 (Maine 1993). That is,
we advise that a chief of police should deny an
application when the applicant exhibits specific and
articulable indicia that the applicant poses a
heightened risk to public safety. Such indicia could
include, but are not limited to:
(a) Recent incidents of alleged domestic violence,
even if not leading to charges or the issuance of a
protective order;
(b) Recent incidents of careless handling or
storage of a firearm, especially if involving children;
(c) Recent incidents of alcohol or drug abuse,
especially involving violence, even when not leading
to criminal charges or mental health treatment;
(d) Other recent violent conduct, even if not
resulting in criminal charges or serious injury.
4.

No Other Reasons That Justify The
Exercise Of Discretion To Deny A
License.

Finally, section 134-9, HRS, provides that where an
applicant
satisfies
the
statute’s
express
requirements, “the respective chief of police may
grant” an unconcealed-carry license. HRS § 134-9(a)
(emphasis added). Accordingly, we advise that chiefs
of police may exercise reasonable discretion to deny
licenses to otherwise-qualified applicants, but that
discretion may not be exercised in an arbitrary or
capricious manner. Chiefs of police should exercise

80a
their discretion to deny unconcealed-carry licenses to
qualified applicants only where an applicant’s
characteristics or circumstances render the applicant
unsuitable to carry an unconcealed firearm for
reasons not captured by the express statutory
requirements. Discretion may not be used to
effectively nullify the authorization for unconcealedcarry licenses contained in section 134-9. Nor may
discretion be used to impose categorical restrictions
on unconcealed-carry licenses -- such as limiting
them to private security officers -- that the
Legislature did not enact. When a chief of police
denies a firearm for discretionary reasons, he or she
should document the reasons and report them to the
Attorney General as provided in section 134-14,
HRS.
IV. CONCLUSION.
We advise that section 134-9, HRS, does not limit
unconcealed-carry licenses to private security
officers. Furthermore, we advise police chiefs to
administer the statute’s requirements in accordance
with the standards set forth in this Opinion.
Very truly yours,
Russell A. Suzuki
Attorney General

